                                Office of Inspector General
                               Corporation for National and
                                        Community Service




    AUDIT OF CORPORATION FOR NATIONAL
  AND COMMUNITY SERVICE GRANT AWARDED
 TO UNITED STATES VETERANS INITIATIVE, INC.

            OIG REPORT NUMBER 07- 21




                        Prepared by:

              Mayer Hoffman McCann P.C.
           Conrad Government Services Division
              2301 Dupont Drive, Suite 200
                 Irvine, California 92612



This report was issued to Corporation management on September 10, 2007.
Under the laws and regulations governing audit follow-up, the Corporation is to
make final management decisions on the report’s findings and
recommendations no later than March 10, 2008, and complete its corrective
actions by September 10, 2008. Consequently, the reported findings do not
necessarily represent the final resolution of the issues presented.
                                       September 10,2007


TO:            Kristin McSwain
               Director, AmeriCorps State*National

               Margaret Rosenberry
               Director, Office of Grants @agement

FROM:          Gerald Walpin
               Inspector General

SUBJECT:      Report 07-21, 0ftice/of Inspector General (OIG) Audit of Corporation for
              National and Community Service Grant Awarded to the US. Veterans
              Initiative, Inc. (USVI)


We contracted with the independent certified public accounting firm of Mayer Hoffman
McCann P.C., Conrad Government Services Division (Conrad) to perform an incurred-cost
and compliance audit of the Corporation for National and Community Service grant number
03NDHCA001. The contract required that Conrad conduct its review in accordance with
generally accepted government auditing standards.

In its review of USVI, Conrad questioned Federal share costs of $502,774 and non-grant
costs of $249,226 for AmeriCorps education awards. It also presented 10 findings on
internal controls and compliance with grant terms.

In connection with the contract, we reviewed Conrad's report and related documentation and
inquired of its representatives. Our review was not intended to enable us to express, and we
do not express opinions on the conclusions expressed in the report. Conrad is responsibfe for
the attached report, dated March 2, 2007, and the conclusions expressed therein. However,
our review disclosed no instances where Conrad did not comply, in all material respects, with
generally accepted government auditing standards.




                  1201 New York Avenue, NW* Suite 830, Washington, DC 20525
                                   *                      *
                    202-606-9390 Hotline: 800-452-8210 www.cncsoi~.nov
                                                                                    Freedoni Corps                  ,
                      Senior Corps   * AmeriCorps * Learn and Serve America         Make a Difference. Volunteer.
Under the Corporation's audit resolution policy, a final management decision on the findings
in this report is due by March 10,2008. Notice of final action is due by September 10,2008.

If you have questions pertaining to this report, please call this office at 202-606-9390.

Attachment

cc:   Dwight Radcliff, Acting Chief Executive Officer,
        U.S. Veterans Initiative, Inc.
      Rene Jorgeson, Principal, Mayer Hoffman McCann P.C.
      Nicola Goren, Chief of Staff
      Jerry Bridges, Chief Financial Officer
      William Anderson, Deputy Chief Financial Officer
      Sherry Blue, Audit Resolution Coordinator
                   Audit of Corporation for National and Community Service
                     Grant Awarded to United States Veterans Initiative

                                             TABLE OF CONTENTS
                                                                                                                          Page
REPORT SUMMARYAND HIGHLIGHTS

        Executive Summary ............................................................................................. 1

        Background .......................................................................................................... 3

        Objectives, Scope, and Methodology .................................................................. 4

        Summary of USVI’s Response ............................................................................ 5

        Grant Audited ....................................................................................................... 5

        Costs Questioned ................................................................................................. 6

        Compliance and Internal Control Findings .......................................................... 6

INDEPENDENT AUDITORS' REPORT ....................................................................... 8

FINANCIAL SCHEDULES

        Schedule of Award Costs ..................................................................................... 10



INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE
   AND INTERNAL CONTROL.................................................................................. 11

        Compliance Findings ........................................................................................... 12

        Internal Control Findings ..................................................................................... 46

        Other Matters ....................................................................................................... 49

        Internal Controls Over Financial Reporting ........................................................ 51

APPENDICES

        A: Response to the Draft Report by United States Veterans Initiative

        B: Response to the Draft Report by Corporation for National and
           Community Service
REPORT SUMMARY AND HIGHLIGHTS
            Maysv Hsflnlau McCanra Re
            An Independent CPA Firm


     1I (   2301 Dupont Drive, Suite 200
            Irvine, California 92612




Office of Inspector General
Corporation for National and Community Service


This report is issued under an Office of Inspector General (OIG) engagement with Mayer
Hoffman McCann P.C. to audit the costs claimed by United States Veterans Initiative (USVI)
from September 1,2003, through August 3 1,2006 under a grant awarded by the Corporation
for National and Community Service (Corporation). This report focuses on the audit of
claimed costs, instances of noncompliance with Federal laws, applicable regulations or award
conditions, and internal control weaknesses disclosed during the audit.

                                       Executive Summarv

USVI claimed total costs of $5,363,221 for the period audited. Of this total, we questioned
$502,774. We also questioned $249,226 for Federal taxpayer-supported education awards,
which are not included as costs claimed by USVI, but are earned when an AmeriCorps
member, as certified by USVI, satisfies specific requirements. A questioned cost is what is
believed to be a violation of a provision of law, regulation, contract, grant, cooperative
agreement, or other agreement or document governing the expenditure of Federal funds; a
finding that, at the time of the audit, such cost is not supported by adequate documentation;
or a finding that the expenditure of funds for the intended purpose is unnecessary or
unreasonable.

Additionally, USVI may not have properly accounted for a significant amount of program
income resulting from its joint venture agreement (JVA) with Cantwell-Anderson
Incorporated LLC (hereinafter 'CAI,' whether referring to Cantwell-Anderson Incorporated
LLC and/or its wholly owned or predominately owned subsidiaries.) at its Westside
Residence Hall site, and at other operating sites where JVAs have been negotiated between
                                                                                  0
USVI and CAI. See page 38 for further details.

We determined that the transactions related to rent expenses and other transactions, between
USVI and CAI, are less-than-arms-length. See page 37 for further details. We are also
awaiting a final decision from the Department of Housing and Urban Development (HUD)
on using grant funds from one Federal agency as match to another agency's grant. The
results of our audit may also be impacted by the final resolution of the indirect costs that
have yet to be audited.

Our audit included fieldwork at USVIYshome office as well as testing at three of six program
sites. Our audit found deficiencies and non-compliance with grant provisions including:
     •     Commingling of costs to a fund code used for the grant under audit and a newly
           awarded Corporation National Direct grant;
     •     Performance measures not clearly tracked and evaluated by the program;
     •     Transaction tests resulting in a 69 percent error rate, including indirect costs
           claimed as grant costs, costs claimed without proper support, costs directly
           allocated without explanation of benefit to the program, costs claimed which did
           not meet allowability criteria and costs claimed based on estimates;
     •     Retroactively dated transactions submitted as support for claimed costs without
           explanation;
     •     Personal expenses of USVI’s Chief Executive Officer charged to the grant;
     •     An irreconcilable difference between costs claimed and records from a subsidiary
           accounting ledger; and
     •     A number of internal control weaknesses, including no documentation of
           monitoring visits.

Deficiencies found at program sites included:

     •     Incomplete AmeriCorps member eligibility documentation;
     •     Member evaluations not consistently performed;
     •     Member training hours not reported;
     •     Criminal record checks not performed on members serving vulnerable persons;
     •     Variances between hours recorded on member timesheets and hours reported by
           USVI to the Corporation’s Web Based Reporting System (WBRS);
     •     Members who served more than two terms and received living allowances;
     •     Living allowances claimed for Education Award Only (EAO) members;
     •     Living allowances claimed for members for whom no records existed;
     •     Member living allowances claimed for USVI members enrolled in the Nevada
           Commission program;
     •     Members who provided no service to veterans or who performed administrative
           duties for USVI ;
     •     Members who provided services to the for-profit real estate development firm
           CAI;
     •     Employees of USVI or a USVI placement site enrolled as EAO members;
     •     Member living allowances classified as salaries; and
     •     Staff level of effort claimed based on estimates rather than timesheets.

The report includes ten findings and 22 recommendations to improve the grantee’s internal
controls and its compliance with grant provisions. USVI was last audited by this OIG on
December 5, 1997. Results from that audit were similar to these results.

On May 8, 2007, the Corporation informed USVI that, based on issues raised during the exit
conference, it was deferring action on its 2007 AmeriCorps National Direct continuation
funding, and that current costs reimbursed to USVI would be limited to member costs and
costs directly associated to support member activities. The Corporation instructed USVI to



                                                2
include supporting documentation for each cost claimed and stated that the following type of
costs would not be reimbursed:


   1. Indirect costs;
   2. All costs not directly associated with member service activities; and
   3. Salaries for USVI senior staff and those not directly associated with member
      oversight and supervision.


                                        Background

The Corporation, pursuant to the authority of the National Community Service Trust Act of
1993, as amended, awards grants to grantees referred to as National Directs, such as USVI, to
assist in the creation of full-time and part-time service programs.

USVI is a non-profit entity headquartered in Inglewood, CA. It provides assistance to
homeless veterans in California, Nevada, Arizona, Texas, Hawaii, New York and the District
of Columbia. USVI receives Federal funding from:

     •     Corporation for National and Community Service;
     •     U. S. Department of Veterans Affairs;
     •     U. S. Department of Housing and Urban Development; and
     •     U. S. Department of Labor.

The Corporation funded USVI with a $6,811,252 AmeriCorps National Direct Grant,
No. 03NDHCA001, and USVI has claimed costs of $5,363,221 through August 31, 2006.
USVI processed drawdowns of $4,947,792 during the period under review.

USVI’s relationship with CAI is discussed at length later in this report. In summary, a JVA
was established on September 27, 1993, between USVI and Westside Residence Hall
(Westside), a CAI wholly owned subsidiary, stipulating that profit generated from the
operation of Westside would be evenly allocated to both entities. Similar JVAs with CAI
were established for other USV1 operating sites throughout the country.

USVI also has a financial relationship with Century Housing Corporation (CHC), a
California nonprofit corporation, and its affiliate, Century Villages of Cabrillo, Inc. (CVC),
whereby rent is paid by USVI to CVC for the Long Beach facility and claimed to the
National Direct and California Commission grants. In addition, USVI has agreed to allow
CVC the use of its donated Navy furnishings for $1 per year.

USVI has been audited by its funding agencies, including the U.S. Department of Housing
and Urban Development (HUD). The results of the HUD report, dated September 27, 2004,
questioned consulting fees paid by USVI to CAI due to a lack of supporting documentation.
USVI agreed to reimburse HUD approximately $134,000 for its share of the costs paid to

                                              3
CAI. The costs for these fees were recovered through USVI’s indirect cost pools. As a
result, all of the other Federal awarding agencies, including the Corporation, are very likely
entitled to a similar reimbursement from USVI for the amounts allocated for these same
charges to their respective grants.

                           Objectives, Scope, and Methodology

We performed our audit during the period June 21, 2006, through March 2, 2007, and used
methodologies we deemed appropriate. Our Independent Auditor’s Report and our
Independent Auditor’s Report on Compliance and Internal Control provide additional details
about scope and methodology. The objectives of our audit were to determine whether:

       •   USVI’s financial reports fairly presented the financial results of the award;

       •   Internal controls were adequate to safeguard Federal funds;

       •   USVI had adequate procedures and controls to ensure compliance with Federal
           laws, regulations, and award conditions, including that AmeriCorps member
           services were appropriate; and

       •   Award costs reported to USVI were documented and allowable in accordance
           with the grant award terms and conditions.

We performed the audit in accordance with auditing standards generally accepted in the
United States of America and generally accepted government auditing standards issued by
the Comptroller General of the United States. Those standards require that we plan and
perform the audit to obtain reasonable assurance about whether the amounts claimed against
the awards, as presented in the Schedule of Award Costs, are free of material misstatement.
An audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in the Schedule of Award Costs. An audit also includes assessing the accounting
principles used and significant estimates made by the auditee, as well as evaluating the
overall financial schedule presentation. Our audit included reviews of audit reports prepared
by the independent public accountants for the subgrantees in accordance with the
requirements of Office of Management and Budget (OMB) Circular A-133, Audits of States,
Local Governments and Non-profit Organizations. We believe our audit provides a
reasonable basis for our opinion.

The contents of this report were disclosed to and discussed with USVI officials at an exit
conference held on April 13, 2007. In addition, the OIG provided a draft of this report to
USVI and to the Corporation for comment on July 25, 2007. Their responses are included as
Appendices A and B, respectively.




                                               4
                              Summary of USVI’s Response

Most of USVI’s response contains (i) agreement with OIG’s audit findings; (ii) USVI’s
suggestion that documentation which might support USVI’s financial representations might
be provided in the audit resolution process (even though USVI did not provide that
documentation during the audit); (iii) assertions by USVI of the correctness of its position
without providing reference to supporting documentation or audit criteria; and (iv) implicit
admissions of the validity of the audit findings by statements that USVI has changed its
procedures to correct the reported defects.

The response also suggests that findings of non-compliance should be excused because USVI
provides service to homeless veterans. The audit does not question the societal benefit of
services to veterans. However, a good purpose does not relieve a Federal grantee from the
obligation to comply with laws, regulations, OMB circulars and grant provisions.

Finally, the response comments on the lengthy duration of the audit. During the course of
our work, we received numerous requests from USVI to delay or suspend the audit for
months at a time. USVI was concerned that the original time frame for the audit would not
be fair, and would not allow it the time needed to answer auditor questions and support costs.
We have documented the fact that the duration of this audit includes considerable additional
time provided to USVI by the auditors to find documentation and answer audit questions.
Despite the additional time granted, USVI continues to state that it would like to provide
additional data during the audit resolution process.


                                       Grant Audited

Our audit of USVI covered financial transactions and compliance and internal controls
testing of grant award 03NDHCA001 for the AmeriCorps National Direct Program, as
follows:

Award Period: 09/01/03 to 02/28/07           Audit Period: 09/01/03 to 08/31/06




                                              5
                                    Costs Questioned

The following table summarizes the costs questioned:

                                                        Amount
               Reason for Questioned Cost
                                                       Questioned     Reference
         Not in Accordance with Grant Provisions
         or Cost Principles                              $ 15,665     Finding # 1
         Indirect Costs Claimed as Direct                 144,728     Finding # 2
         Unsupported                                       46,120     Finding # 2
         Allocation Percentage not Justified               33,715     Finding # 2
         Not in Award Budget                                3,866     Finding # 2
         Not Allocable                                      1,915     Finding # 2
         Unallowable due to AmeriCorps program
         non-compliance                                   142,894     Finding # 4
         Less-Than-Arms-Length Transactions -
         Rent                                              113,871    Finding # 5
            Total Grant Costs Questioned                 $ 502,774
            Total Education Awards Questioned            $ 249,226    Finding # 4


We used a judgmental sampling method to test the costs claimed. Based upon this sampling
plan, questioned costs in this report may not represent total costs that may have been
questioned had all expenditures been tested. We have made no attempt to project such costs
to total expenditures incurred, based on the relationship of costs tested to total costs. We
consider Findings 1 through 4 to be material weaknesses. For a complete discussion of these
questioned costs, refer to the Independent Auditor’s Report below.

                       Compliance and Internal Control Findings

Compliance Findings:
Our audit disclosed the following instances of noncompliance with Federal laws, regulations,
and award conditions:

   1. USVI did not have adequate financial controls or other procedures in place to ensure
      that it claimed costs in accordance with grant provisions and OMB’s cost principles.
   2. USVI did not implement an adequate financial management system that would ensure
      costs claimed were allowable, allocable and reasonable.
   3. USVI claimed match costs that did not meet the requirements of the grant provisions,
      the Code of Federal Regulations, or the OMB Circulars.
   4. USVI lacked controls to ensure AmeriCorps member program requirements were
      followed.
   5. USVI claimed unallowable rent to the grant.
   6. USVI program results were not clearly defined.
   7. USVI did not consistently comply with specific grant provisions.

                                             6
Internal Control Findings:
     8. USVI does not have policies and procedures for drawdowns.
     9. USVI has not updated its job descriptions.
    10. A Financial Status Report (FSR) variance went undetected by Grantee.
                                                                         1
We consider Findings 1 through 4 to be material weaknesses .




1
 A material weakness is a reportable condition in which the design or operation of one or more of the internal
control components does not reduce, to a relatively low level, the risk that errors or irregularities, in amounts
which would be material to the financial schedules being audited, may occur and not be detected within a timely
period by employees in the normal course of performing their assigned functions.

                                                       7
          2 3 0 1 Dupont Drive, Suite 2 0 0
          Irvine, California 92612
          949-474-2020 ph
          948263-5520 fx
          wwv~.mtm-pcxom




Office of Inspector General
Corporation for National and Community Service


                            INDEPENDENT AUDITORS' REPORT


We have audited the costs incurred by USVI for the award number listed below. These costs,
as presented in the Schedule of Award Costs, are the responsibility of USVI management.
Ow responsibility is to express an opinion, based on our audit.

     AmeriCorps Award Number                    Award Period            Audit Period
           03NDHCA001                         09/01/03 to 02/28/07   09/01/03 to 0813 1/06



We conducted ow audit in accordance with auditing standards generally accepted in the
United States of America and generally accepted government auditing standards issued by
the Comptroller General of the United States. We believe our audit provides a reasonable
basis for our opinion.

Rulings from Other Agencies
USVI is the recipient of grant awards from other Federal agencies. We are waiting for
rulings from another agency on certain issues which may affect the costs claimed to the
Corporation grant. USVI claimed Corporation funds as match costs to its U. S. Department
of Housing and Urban Development (HUD) grant. HUD is considering allowing these costs
as a valid grant match. If these costs are ruled as a valid match, then the costs claimed as
HUD match may not be allowable as claimed Corporation grant costs.

Indirect Costs
Costs claimed under this grant include indirect costs. The indirect cost rates have not been
audited as part of this audit. As a result, costs claimed under the indirect cost category could
be over- or under-stated.

Allocation of Costs
USVI allocates certain costs among various Federal grant awards. Audit evidence provided
to support these allocations did not meet OMB Circular requirements.
Evidential Matter
During fieldwork, our discussions with USVI personnel and USVI management produced
inconsistent and untimely responses. We found that certain source documents were
questionable and some documents only partially supported costs claimed.

Error Rate of Costs Audited
Our sampling of transactions revealed that 69 percent of the tested transactions were
unallowable, unsupported or not allocable. Due to the error rate and the internal control
weaknesses causing those errors, we cannot be assured those costs that were not tested are
similarly unallowable, unsupported or not allocable.

In our opinion, because of the matters previously discussed, the Schedule of Award Costs
referred to above does not present fairly the costs claimed for the period September 1, 2003,
to August 31, 2006, in conformity with generally accepted accounting standards in the
United States of America.

In accordance with the Government Auditing Standards, we have also issued our report,
dated March 2, 2007, on our consideration of USVI's internal controls over financial
reporting and on our tests of its compliance with certain provisions of laws, regulations,
contracts, and grant agreements and other matters. That report, beginning on page 11,
describes the scope of our testing of internal control over financial reporting and compliance
and the results of that testing, but does not provide an opinion on those issues. That report is
an integral part of an audit performed in accordance with Government Auditing Standards
and should be considered in assessing the results of our audit.




Mayer Hoffman McCann P.C.
Irvine, California
March 2,2007
                Corporation for National and Community Service Awards
                            United States Veterans Initiative
                                Schedule of Award Costs

                           September 1, 2003, to August 31, 2006


 AmeriCorps                                                                       Questioned
   Award           Approved        Claimed         Questioned    Questioned       Education
  Number            Budget          Costs            Costs       Match Costs       Awards

03NDHCA001         $ 6,811,252     $ 5,363,221      $ 502,774     $ 560,681       $ 249,226


                              Notes to Schedule of Award Costs

Reporting Entity

The accompanying Schedule of Award Costs includes amounts budgeted, claimed, and
questioned under the AmeriCorps National Direct grant from the Corporation for the period
from September 1, 2003, to August 31, 2006.


Basis of Accounting

The accompanying Schedule has been prepared to comply with the provisions of the grant
agreements between the Corporation and USVI. The information presented in the Schedule
has been prepared from the reports submitted by USVI to the Corporation. The basis of
accounting used in preparation of these reports differs slightly from accounting principles
generally accepted in the United States of America as follows:

        Inventory
        Minor materials and supplies are charged to expense during the period of purchase.

Related Party Transactions

USVI is a member of an established joint venture with CAI. The joint venture agreement
provides for reimbursement by USVI of certain operating expenses. Activities between the
parties for accounting support, consulting, rent and other services are considered related party
transactions.




                                              10
           2 3 0 1 Dupont Drive, Suite 206
           Irvine, California 92612
           949-474-2020 ph
           949-263-5520 fx
           w~~.rnhm-pc,corn




 Office of Inspector General
 Corporation for National and Community Service


                         INDEPENDENT AUDITORS' REPORT ON
                        COMPLIANCE AND INTERNAL CONTROL


 We have audited the Schedules of Award Costs which summarize the claimed costs of USVI
 under the Corporation and have issued our report thereon, dated March 2,2007.

        Pro~ram            Award Number            Award Period             Audit Period
AmeriCorps National Direct 03NDHCA001           09/01/03 to 02/28/07    09/01/03 to 0813 1/06


 We conducted our audit in accordance with auditing standards generally accepted in the
 United States of America and generally accepted government auditing standards issued by
 the Comptroller General of the United States.

                                  Compliance and Other Matters

 Compliance with laws, regulations, and the provisions of the awards is the responsibility of
 USVI's management. As part of obtaining reasonable assurance about whether the financial
 schedules are free of material misstatement, we performed tests of compliance
 with certain provisions of laws, regulations, and the terms and conditions of the awards,
 noncompliance with which could have a direct and material effect on the determinatidh of the
 amounts on the financial schedules. However, providing an opinion on compliance with
 those provisions was not an objective of our audit, and accordingly, we do not express such
 an opinion. The results of our tests disclosed instances of noncompliance or other matters
 that are required to be reported under Government Auditing Standards and which are
 described in the Compliance Findings section of this report.
Compliance Findings

Our tests disclosed the following instances of noncompliance with grant terms:

Finding 1: USVI did not have adequate financial controls or other procedures in place
           to ensure that it claimed costs in accordance with grant provisions and
           OMB’s cost principles.

USVI claimed costs that did not comply with AmeriCorps Provisions or the OMB cost
principles. As a result, we questioned $15,665 of costs claimed as Federal share and $49
claimed as match.

                                                        Federal
                        Description                      Share       Match
               CEO personal expenses                    $ 1,294      $-
               Special Events                            10,201       49
               Entertainment Costs                        1,953        -
               Civic Organizations                        1,500        -
               Credits                                      100        -
               Gifts Claimed as Supplies                    217        -
               Contributions/Donations                      290        -
               Unallowable Travel                           110        -

                     Total Questioned Costs             $15,665       $49


Personal Expenses
USVI’s Chief Executive Officer claimed costs for personal expenses, including payment for
the CEO’s home phone, home fax, home internet, and home cable television services. Also
included in costs claimed were personal shipping fees for the CEO’s returned items to a
department store and magazine subscriptions to Texas Monthly, Washingtonian, and Phoenix
Magazine. The subscriptions were bought by the CEO and purchased from her son with a
check payable to the South Pasadena Middle School. The magazines were sent to the home
of the CEO.

OMB Circular A-122, Cost Principles for Non-Profit Organizations, (hereafter OMB
A-122) Attachment B. Selected Items of Cost, Paragraph 19 states: “Goods or Services for
Personal Use. Costs of goods or services for personal use of the organization’s employees
are unallowable regardless of whether the cost is reported as taxable income to the
employees.”

Special Events
We identified costs claimed for special events staged by USVI for veterans. The majority of
costs incurred for the special events were for meals. The events were titled:



                                             12
               •   Spring Vet Party;
               •   Mother’s Day Event;
               •   Cultural Celebration of Freedom Week;
               •   AmeriCorps Banquet (Includes Costs for Family Members);
               •   Artist Showcase Event;
               •   Make a Difference Day;
               •   Grand Opening for Ignacia House;
               •   Cinco De Mayo Celebration;
               •   Memorial Day Cookout;
               •   New Years Eve Barbeque;
               •   Graduation for 60 VIP Veterans;
               •   1st Anniversary Luau;
               •   Christmas Event Party for veterans and one guest (included $125 for disc
                   jockey);
               •   Christmas Party for USVI Staff;
               •   Halloween Party;
               •   Annual Celebration Party; and
               •   Black History Month Party.

USVI’s per-diem grant with the VA, entitled Veterans in Progress (VIP), is designed to cover
the costs of meals for veterans housed onsite. We, therefore, believe these costs are
duplicative because they are recovered through the VA per-diem grant. We also note that the
costs were not included in the Corporation’s grant budget for the first two budget periods.
Lastly, we believe these costs do not meet the requirements of costs considered to be
reasonable as defined by the OMB Circulars due to the nature and the frequency of the
events, and that many of the expenses were for the benefit of participating relatives of both
AmeriCorps members and veterans.

OMB Circular A-122, Attachment A. General Principles, Paragraph A.2.f. Basic
Considerations, Factors affecting allowability of costs, states: “To be allowable under an
award, costs must meet the following general criteria: . . . f. Not be included as a cost or used
to meet cost sharing or matching requirements of any other federally-financed program in
either the current or a prior period.”

OMB Circular A-122, Attachment A. General Principles, Paragraph A.3 Basic
Considerations, Reasonable Costs states:

       A cost is reasonable if, in its nature or amount, it does not exceed that which
       would be incurred by a prudent person under the circumstances prevailing at
       the time the decision was made to incur the costs. The question of the
       reasonableness of specific costs must be scrutinized with particular care in
       connection with organizations or separate divisions thereof which receive the




                                               13
       preponderance of their support from awards made by Federal agencies. In
       determining the reasonableness of a given cost, consideration shall be given
       to:

               a. Whether the cost is of a type generally recognized as ordinary and
               necessary for the operation of the organization or the performance of the
               award.

               b. The restraints or requirements imposed by such factors as generally
               accepted sound business practices, arms length bargaining, Federal and State
               laws and regulations, and terms and conditions of the award.

               c. Whether the individuals concerned acted with prudence in the
               circumstances, considering their responsibilities to the organization, its
               members, employees, and clients, the public at large, and the Federal
               Government.

               d. Significant deviations from the established practices of the organization
               which may unjustifiably increase the award costs.

Entertainment
Costs claimed included those associated with special events discussed above that we consider
to be entertainment and are outside the scope of the grant. They include payments for the
following:

                •   Halloween Party in Houston for veterans that included costs for a disc
                    jockey, games, contests, decorations, food, prizes and children’s
                    activities;
                •   Christmas Party in Houston for veterans and one guest that included
                    costs for a disc jockey;
                •   Los Angeles Dodger baseball tickets for non-member volunteers ; and
                •   Veterans taking Polynesian Dance lessons.

OMB Circular A-122, Attachment B. Selected Items of Cost, Paragraph 14 states:
“Entertainment Costs. Costs of entertainment, including amusement, diversion, and social
activities and any costs directly associated with such costs (such as tickets to shows or
sports events, meals, lodging, rentals, transportation, and gratuities) are unallowable.”

Civic Organizations
We identified costs claimed for the CEO’s membership to the Los Angeles Rotary Club
totaling $1,500. These costs are allowable if prior approval is obtained from the cognizant
agency. Prior approval from the Corporation was not obtained. Had approval been obtained,
these costs would have been questioned as a direct grant expense on the basis that they
represent costs that indirectly benefit the grant because the CEO’s activities benefit all grants.


                                               14
OMB Circular A-122, Attachment B. Selected Items of Cost, Paragraph 30.c, states:
Memberships, subscriptions, and professional activity costs. Costs of membership in any
civic or community organization are allowable with prior approval by Federal cognizant
agency.

OMB Circular A-122, Attachment A. General Principles, Paragraphs B.1 and C.1,
Direct Costs and Indirect Costs state:

       Direct costs are those that can be identified specifically with a particular final cost
       objective, i.e., a particular award, project, service, or other direct activity of an
       organization. However, a cost may not be assigned to an award as a direct cost if
       any other cost incurred for the same purpose, in like circumstance, has been
       allocated to an award as an indirect cost.

              *       *       *

       Indirect costs are those that have been incurred for common or joint objectives
       and cannot be readily identified with a particular final cost objective.

Credits
We identified claimed costs for an event for which a security deposit refund was received,
but not credited to the grant. The amount of the security deposit was $100.

OMB Circular A-122, Attachment A. General Principles, Paragraph 5.a, states:

       Applicable Credits. The term applicable credits refers to those receipts, or
       reduction of expenditures which operate to offset or reduce expense items that are
       allocable to awards as direct or indirect costs. Typical examples of such
       transactions are: purchase discounts, rebates or allowances, recoveries or
       indemnities on losses, insurance refunds, and adjustments of overpayments or
       erroneous charges. To the extent that such credits accruing or received by the
       organization relate to allowable cost, they shall be credited to the Federal
       Government either as a cost reduction or cash refund, as appropriate.

Gifts Claimed as Supplies
USVI purchased 1,000 backpacks for its 2003 Christmas Party. We determined the cost of
20 of those backpacks had been claimed as “Supplies” to the grant and were given to
veterans. These types of costs do not constitute allowable supplies. In fact, they more
closely represent public relations-type gifts which are also not allowable. The amount
claimed for the purchase of the gifted backpacks was $217.

OMB Circular A-122, Attachment B. Selected Items of Cost, Paragraph 28, states:

       Materials and supplies. The costs of materials and supplies necessary to carry out an
       award are allowable. Such costs should be charged at their actual prices after

                                              15
       deducting all cash discounts, trade discounts, rebates, and allowances received by the
       organization. Withdrawals from general stores or stockrooms should be charged at
       cost under any recognized method of pricing consistently applied. Incoming
       transportation charges may be a proper part of material cost. Materials and supplies
       charged as a direct cost should include only the materials and supplies actually used
       for the performance of the contract or grant, and due credit should be given for any
       excess materials or supplies retained, or returned to vendors.

OMB Circular A-122, Attachment B, Selected Items of Cost, Paragraph 1.f, states:
“Advertising and public relations costs. . . . Unallowable advertising and public relations
costs include the following: . . . (3) Costs of promotional items and memorabilia,
including models, gifts, and souvenirs.”

Contributions/Donations
We found transactions in which USVI claimed contributions to a fundraiser “Hike for the
Homeless” that included a $150 registration fee; a $90 donation to the Women’s Care
Cottage to attend a Literary Luncheon, and a $50 donation to attend a meeting of Military
Women in Need.

OMB Circular A-122, Attachment B, Selected Items of Cost, Paragraph 12 states:
“Contributions and Donations rendered. Contributions or donations, including cash,
property, and services, made by the organization, regardless of the recipient, are
unallowable.”

Unallowable Travel
Cost claimed included the CEO’s per-diem for a trip to Washington, DC. in addition to $110
for the cost of a dinner with the Director of the Veterans Administration Homeless Veterans
Program and CAI’s President. Claiming both per-diem and the actual costs of a meal
represents an overcharge and does not comply with USVI’s travel policies. In addition, the
cost of the meal with the VA representative does not constitute an allocable AmeriCorps
cost. Therefore, we have questioned these costs.

We determined that USVI lacked a clear understanding of OMB Circular Cost principles.
We also noted that the CEO’s monthly expense reimbursement reports were not reviewed or
approved by anyone within USVI or its Board of Directors. We believe these costs were not
properly supported due to USVI’s lax approach in documenting and maintaining records of
costs claimed to the grant.

OMB Circular No. A-122, Attachment B, Selected Items of Cost, Paragraph 51. Travel costs,
states:

        b. Lodging and subsistence. Costs incurred by employees and officers for travel,
        including costs of lodging, other subsistence, and incidental expenses, shall be
        considered reasonable and allowable only to the extent such costs do not exceed



                                              16
        charges normally allowed by the non-profit organization in its regular operations
        as the result of the non-profit organization’s written travel policy.

USVI travel policy 2.d. Meals states: “Initiative will pay current federal per diem rates for
meals for the city to which you are traveling. If you only travel for a portion of a day, please
break your day into thirds and request per diem accordingly.”

This finding is also considered to be an internal control weakness.

Recommendations

Recommendation 1: The Corporation should determine the allowability of the questioned
costs and recover unallowable costs including applicable overhead and G&A costs.

Recommendation 2: The Corporation should ensure that USVI improves its review process
to ensure that only allowable costs are claimed.

Recommendation 3: The Corporation should ensure that USVI requires all CEO
expenditures be reviewed and approved in accordance with USVI policies.

USVI’s Response

USVI disagrees with the finding, but agrees that some mistakes were found. USVI contends
it has have adequate financial controls and procedures to ensure that costs were claimed in
accordance with grant provisions and OMB’s cost principles.

Auditor’s Comment

We believe the results of our testing fully support that controls either do not exist or are not
followed. We reiterate our recommendation that USVI improve its process for reviewing
grant transactions for allowability, as well as ensuring that all CEO expenses be reviewed
prior to payment.

USVI did not specifically address the rationale for direct-grant charging the Executive
Director’s personal charges. USVI merely explains the nature of the expenses and is silent
on the allocability of these charges that, to the extent they were not personal, clearly benefit
the entire organization and should be charged as indirect. Furthermore, USVI does not
address the rules and regulations quoted above which expressly prohibit charging grant funds
for entertainment.




                                               17
Finding 2: USVI did not implement an adequate financial management system that
           would ensure costs claimed were allowable, allocable and reasonable.

Our tests found numerous instances of costs claimed without sufficient or appropriate
documentation.

                                                          Federal Share      Match
                         Description                       Questioned       Questioned
    Transactions Retroactively Added to 3/31/06 FSR        $ 6,760          $ -
    Indirect Payroll Costs Charged as Direct Costs          117,322           5,478
    Indirect Non-Payroll Costs Charged as Direct Costs       27,406             996
    Payroll Costs Allocated to CNCS without
     Justification of Allocation                                  291            -
    Non-Payroll Costs Allocated to CNCS without
     Justification of Allocation                               26,664          1,294
    Unsupported Payroll Costs                                  28,478          6,262
    Unsupported Non-Payroll Costs                              17,642          3,266
    Costs not Approved in Award Budget                          3,866            -
    Costs not Allocable                                         1,915             47

                           Total                            $230,344         $17,343


Transactions Retroactively Added to the March 31, 2006 FSR
The original scope of work was expanded from USVI’s March 31, 2006, Financial Status
Report (FSR) to the Corporation to include costs claimed on the September 30, 2006, FSR.
We requested and received an updated transaction database of costs claimed and found that
transactions had been retroactively added to the March 31, 2006, FSR for program years
2003/2004 and 2004/2005. Sixty-two transactions were added for Program Year 2003/2004
and 433 transactions were added for Program Year 2004/2005. An explanation was provided
to the audit team on the last day of fieldwork. While most of the transactions were found to
be valid and allowable, we questioned the following items:

   1. Two credit card charges for 2003 travel expenses were not posted to the grant until
      March 2006. The explanation for these charges was that supporting documentation
      for the original credit card statement was difficult to assemble because many persons
      used the CEO’s credit card for business purposes. It was not until March 2006 that
      all documentation had been assembled and USVI was confident that the charges
      pertained to the AmeriCorps grant. This explanation was provided to us the last day
      of fieldwork and, as a result, we were unable to review the supporting documentation
      to assess the appropriateness of the costs claimed. The transactions in question
      totaled $1,367. We also found seven credit card charges from 2005 that were not
      posted to the grant until March 2006. These charges totaled $973.



                                            18
   2. USVI received a grant (06NDHCA002) from the Corporation with a start date of
      September 1, 2006. We found some of the transactions which had been retroactively
      added to the grant under audit were actually for the new grant. This error occurred
      because the USVI fund code for the old award was also used for the new award. We
      identified $2,632 in transactions for the period September 1-30, 2006. However, the
      overlap of the two grants indicates the commingling of costs between the two awards
      most likely existed beyond the scope of our audit (through August 31, 2006).

   3. Six transactions for USVI’s California Commission grant were retroactively added to
      the March 2006 FSR in error. These transactions totaled $1,788.

Indirect Costs Charged as Direct Costs
We found 82 instances of non-payroll expenses charged to the grant whose benefit to the
grant was indirect. Most of the questioned transactions pertained to costs incurred by the
CEO. Activities of the CEO, the COO and Site Directors benefit the entire organization and
those costs should be shared by all final cost objectives. Examples included:

   •    Costs of CEO labor charged directly to the grant - $117,322 (Federal share) and
        $5,478 (Match Costs);
   •    Costs of CEO travel charged directly to the grant - $18,647 (Federal share) and $173
        (Match Costs);
   •    Other CEO costs directly charged to the grant - $3,967 (Federal share);
   •    Costs of COO travel charged directly to the grant - $3,148 (Federal share);
   •    Costs of Site Directors’ travel charged directly to the grant - $439 (Federal share).

The HUD audit report on USVI, dated September 27, 2004, contained a similar finding
against USVI for charging as direct costs those which should be charged as indirect. USVI
has agreed to reimburse HUD for those erroneously charged direct costs thus acknowledging
the error of the same charge USVI made against the Corporation. Furthermore, we note that
the 2005-2006 indirect cost plan, used to negotiate provisional indirect rates, included the
CEO’s salary as an element in the indirect cost pool.

Costs Allocated to Grant without Justification of Allocation
We found charges that were split between various Federal grants. We were unable to
determine the justification for the percentages allocated to the Corporation or to other Federal
sources in 69 instances.

   1. We found travel expenses that were allocated to the grant, but whose allocation was
      inconsistent with the traveler’s labor distribution. One employee showed 100 percent
      travel costs claimed to the National Direct AmeriCorps grant, but the labor for this
      period was claimed to a VA grant. In another example, the traveler had claimed four
      days of labor to the California Commission grant and one day to the National Direct
      AmeriCorps grant. All of the travel costs were charged to the AmeriCorps grant. An
      explanation for these inconsistencies was not provided. Therefore, we questioned the
      travel costs claimed of $9,627 (Federal share) and $33 (Match Costs).

                                              19
   2. We identified other operating costs allocated to the grant with no explanation for the
      allocation basis. As a result, we questioned costs totaling $17,037 (Federal share) and
      $1,261 (Match Costs).

   3. We identified $291 of payroll costs charged to the grant in error. They were the
      result of hours charged as vacation and sick time being charged directly to the grant.
      These costs had already been recovered through the fringe benefit rates.

Unsupported Costs
We identified 42 non-payroll transactions for which supporting documentation was either
missing or insufficient to determine allowability, allocability or reasonableness.

    1. Journal entries were not supported with originating documentation. We questioned
       the costs associated with these entries totaling $2,508 (Federal share) and $500
       (Match Costs).
    2. Insufficient documentation was provided for transactions charged to the grant. We
       questioned the costs associated with these transactions totaling $15,134 (Federal
       share) and $2,766 (Match Costs).
    3. USVI’s AmeriCorps Director in Houston completed her timesheet based on
       estimates. Her estimates included seven hours each day devoted to AmeriCorps and
       one hour each day to the VA VIP program. As a result, $24,770 costs were charged
       to the AmeriCorps grant based on estimates rather than actual effort. An additional
       $6,192 was claimed as match. The Director informed us that she had been
       instructed to complete her timesheets in this manner by USVI headquarters
       personnel. USVI officials denied making such statement. We were unable to
       determine the validity of the costs claimed, and therefore questioned them as being
       unsupported and not in compliance with OMB’s timekeeping requirements.
    4. We determined that the Hawaii Program Coordinator’s labor of $1,824 had been
       arbitrarily charged based on the percentage included in the grant budget. We have
       questioned these costs due to a lack of support.
    5. We found that timesheets were missing for the Los Angeles AmeriCorps Director
       during June 2004. We have questioned $1,488 of labor costs.
    6. We determined that living allowances claimed were more than that recorded on
       USVI’s July 2004 supporting payroll register. We questioned costs of $396 (Federal
       share) and $70 (Match Costs).

Costs Not Approved in Award Budget
We found insurance costs, including general and auto liability and umbrella coverage,
normally charged to the indirect cost pools, were directly charged to the Corporation grant
via journal entries. We also found direct payments made to insurance carriers for dishonesty
and general liability insurance. These costs, totaling $2,072, were not provided for in the
award budget, nor do they represent costs directly benefiting the grant.




                                             20
We also found bank service fees totaling $920 charged directly to the grant. Despite
communication with the bank and USVI, we were unable to determine what type of charges
were assessed. USVI told us that it had claimed the costs in error.

Additionally, we determined that an $874 outlay for cell phones for AmeriCorps members
had been charged to the grant. These costs, like the ones discussed above, were not included
in the grant award budget.

Costs Not Allocable
We identified certain transactions whose costs clearly did not benefit the AmeriCorps
program, either directly or indirectly. Examples of these costs included:

               •     Cell phones for persons not involved with the AmeriCorps program;
                                                                        2
               •     Advertising for CAI’s Transitional Housing Program ;
               •     A first aid class that was not attended;
               •     A postage meter not used for the AmeriCorps program; and
               •     Supplies coded correctly on the supporting voucher, but charged to the
                     AmeriCorps grant in error.

Transactions retroactively posted to the grant in error were due to the lax approach taken by
USVI in assembling and gathering data for the FSR submission. The Controller did not
review the FSR for accuracy or completeness. In addition, USVI did not consider the
implications of reusing fund codes and the probable commingling of grant costs until it had
been brought to its attention by the audit team. USVI contended that its MAS 90 accounting
system would not accommodate another fund code and concluded it had no choice but to
reuse fund codes. Through discussions with USVI, the audit team and USVI concluded there
were in fact other codes which could be used to record costs of the new grant.

On January 25, 2007, USVI’s Controller stated that he does not review cost allocations
because the costs are too immaterial for his involvement. We were later told that the site
directors at various USVI locations were responsible for coding the allocations and
submitting this information to USVI’s finance department. USVI has no policy in place
requiring that allocations be documented and reviewed. During the same meeting, USVI’s
CEO stated that she had been instructed by an individual at the VA whom she could not
identify, to record costs as direct costs whenever possible.

USVI has indirect ceiling limitations on its other Federal grants and these limitations may
have caused USVI to directly charge the AmeriCorps grant and limit costs included in its
indirect cost pools. Also, the low USVI member retention rates resulted in excess grant
funds because there were fewer members than budgeted and therefore there were lower grant
operating expenditures.


2
  Only certain veterans qualify for the Transitional Housing program. One qualification is that the veteran
remains sober for a 90-day period. Tenants participating in the transitional housing program are required to pay
rent directly to CAI.

                                                      21
Criteria

AmeriCorps Provisions (2003), Section C.22. Financial Management Provisions, states in
part:

       a. General. The Grantee must maintain financial management systems that include
       standard accounting practices, sufficient internal controls, a clear audit trail and
       written cost allocation procedures as necessary. Financial management systems must
       be capable of distinguishing expenditures attributable to this Grant from expenditures
       not attributable to this Grant. This system must be able to identify costs by
       programmatic year and by budget category and to differentiate between direct and
       indirect costs or administrative costs. For further details about the Grantee’s financial
       management responsibilities, refer to OMB Circular A-102 and its implementing
       regulations (45 C.F.R. 2543) or A-110 and its implementing regulations (45 C.F.R.
       2541), as applicable.

45 C.F.R. § 2543, Grants and Agreements With Institutions of Higher Education, Hospitals,
and Other Non-Profit Organizations. Subsection 2543.21, Standards for financial
management systems, states:

  (b) Recipients’ financial management systems shall provide for the following:

        (1) Accurate, current and complete disclosure of the financial
       results of each federally-sponsored project or program in accordance
       with the reporting requirements set forth in § 2543.51. If the Grants
       Officer requires reporting on an accrual basis from a recipient that
       maintains its records on other than an accrual basis, the recipient
       shall not be required to establish an accrual accounting system. These
       recipients may develop such accrual data for its reports on the basis
       of an analysis of the documentation on hand.

       (2) Records that identify adequately the source and application of
       funds for federally-sponsored activities. These records shall contain
       information pertaining to Federal awards, authorizations, obligations,
       unobligated balances, assets, outlays, income and interest.

       (3) Effective control over and accountability for all funds,
       property and other assets. Recipients shall adequately safeguard all
       such assets and assure they are used solely for authorized purposes.

       (4) Comparison of outlays with budget amounts for each award.
       Whenever appropriate, financial information should be related to
       performance and unit cost data.




                                              22
      (5) Written procedures to minimize the time elapsing between the
      transfer of funds to the recipient from the U.S. Treasury and the
      issuance or redemption of checks, warrants or payments by other means
      for program purposes by the recipient. To the extent that the
      provisions of the Cash Management Improvement Act (CMIA) (Pub. L. 101-
      453) govern, payment methods of State agencies, instrumentalities, and
      fiscal agents shall be consistent with CMIA Treasury-State Agreements
      or the CMIA default procedures codified at 31 CFR part 205,
      ``Withdrawal of Cash from the Treasury for Advances under Federal Grant
      and Other Programs.’’

      (6) Written procedures for determining the reasonableness,
      allocability and allowability of costs in accordance with the
      provisions of the applicable Federal cost principles and the terms and
      conditions of the award.

      (7) Accounting records including cost accounting records that are
      supported by source documentation.


OMB Circular No. A-122, Attachment A. General Principles, Paragraph A.4. Basic
Considerations, Allocable Costs, states:

      a. A cost is allocable to a particular cost objective, such as a grant, contract, project,
      service, or other activity, in accordance with the relative benefits received. A cost is
      allocable to a Federal award if it is treated consistently with other costs incurred for
      the same purpose in like circumstances and if it:
      (1) Is incurred specifically for the award.
      (2) Benefits both the award and other work and can be distributed in reasonable
      proportion to the benefits received, or
      (3) Is necessary to the overall operation of the organization, although a direct
      relationship to any particular cost objective cannot be shown.

OMB Circular A-122, Attachment A. General Principles, Paragraphs B.1 and C.1,
Direct Costs and Indirect Costs state:

       Direct costs are those that can be identified specifically with a particular final cost
       objective, i.e., a particular award, project, service, or other direct activity of an
       organization. However, a cost may not be assigned to an award as a direct cost if
       any other cost incurred for the same purpose, in like circumstance, has been
       allocated to an award as an indirect cost.

                                          *        *     *

       Indirect costs are those that have been incurred for common or joint objectives
       and cannot be readily identified with a particular final cost objective.

                                              23
OMB Circular A-122, Attachment B. Selected Items of Cost, Paragraph 8.m,
Compensation for personal services, Support of Salary and Wages, states:

        (1) Charges to awards for salaries and wages, whether treated as direct costs or
        indirect costs, will be based on documented payrolls approved by a responsible
        official(s) of the organization. The distribution of salaries and wages to awards
        must be supported by personnel activity reports, . . . .

        (2) Reports reflecting the distribution of activity of each employee must be
        maintained for all staff members (professionals and nonprofessionals) whose
        compensation is charged, in whole or in part, directly to awards.

These AmeriCorps Grant Provisions are binding on the Grantee. By accepting funds
under this grant, the grantee agrees to comply with the AmeriCorps Provisions, all
applicable federal statutes, regulations and guidelines, and any amendments thereto. The
grantee agrees to operate the funded Program in accordance with the approved grant
application and budget, supporting documents, and other representations made in support
of the approved grant application. The grantee agrees to include in all sub-grants the
applicable terms and conditions contained in this award.

This finding is also considered to be an internal control weakness.

Recommendations

Recommendation 4: The Corporation should disallow the questioned costs and recover
unallowable costs that were claimed, including applicable overhead and G&A costs.

Recommendation 5: The Corporation should review the costs claimed beyond the scope of
this audit, September 2006 through February 2007, to determine if the costs are for Grant No.
03NDHCA001 and if these costs are allowable and allocable.

Recommendation 6: The Corporation should require that USVI’s finance department review
disbursements whose costs are split between grants and establish and document the basis.
Once established, the allocation must be consistently applied.

Recommendation 7: The Corporation should require that USVI alter its cost accounting
methodology to have labor and other allowable charges specific to the CEO, COO,
Controller and similar indirect functions be recorded to the indirect cost pools commensurate
with USVI’s indirect cost rate proposal.

USVI’s Response

USVI disagrees with the finding and states it has implemented an adequate financial
management system to ensure costs claimed are allowable, allocable, and reasonable. USVI
agrees to the basis of certain questioned costs, but also believes that final determination of

                                              24
these costs can be accomplished during audit resolution. USVI does not agree that indirect
costs are being claimed as direct costs.


Auditor’s Comment

We believe the results of our tests refute that an adequate financial system is in place or has
ever been in place. The questioned costs identified in this finding are similar in nature to
those previously questioned in OIG Report Number 98-13 of USVI, dated December 5, 1997.




                                              25
Finding 3:    USVI claimed match costs that did not meet the requirements of the
grant provisions, the Code of Federal Regulations, or the OMB Circulars.

USVI claimed $2,079,359 toward grant match as of August 31, 2006. We found numerous
instances of claimed match that was not allowable, allocable or supported, including in-kind
donations of supplies and services and cash match costs, as shown below.

                                                  Match Costs                  Net Match
                                                                   USVI
            Exception Description                 Questioned                     Costs
                                                                  Adjusted
                                                                               Overstated
 Match Costs from Veterans Administration
                                                   $141,827       $   -          $141,827
 funding
 Match Costs from Department of Labor
                                                     31,385           -            31,385
 funding
 Match Costs allocable to California State
                                                    115,613       (115,613)          0
 Commission grant
 Donated In-Kind Services for Supervision of
                                                     84,538           -           84,538
 Members
 Donated In-Kind Goods                              137,166           -          137,166

 Other In-Kind Services                             109,726           -           109,726

                     Total                         $620,255      ($115,613)      $504,642

Match Costs from Veterans Administration Funding
In a November 15, 2005 letter, the VA denied USVI the use of its grant funds toward the
AmeriCorps program grant match. Upon notification, USVI ceased the practice. However, a
retroactive adjustment to omit the VA funds used as grant match prior to the November 15
letter was never prepared. USVI personnel stated they were unaware that the ruling by the
VA would require them to retroactively adjust the costs claimed prior receipt of the letter.
As a result, we quantified the costs claimed from September 1, 2003, through November 15,
2005, and questioned the amount of $141, 827.

Match Costs from Department of Labor Funding
USVI claimed supplies totaling $31,385 obtained from Department of Labor funding through
the Defense Revitalization and Marketing Offices in Hawaii. Items donated included:
              • 10 insulated jugs;
              • 1 meat slicer;
              • 2 monitors;
              • 3 computer systems;
              • 15 water canteens;
              • 55 field packs;
              • 1 cold food counter; and
              • 1 deep fryer.

                                             26
We reviewed a memorandum, dated April 30, 1997, from a previous USVI Controller
documenting USVI’s knowledge of the restrictions placed on the use of Federal funds for
purposes of grant match. Since it is apparent that USVI was aware of the match costs
restrictions, we are unable to determine why it continued to record these expenses as match
costs.

Match Costs Allocable to California Commission
We identified match costs claimed to the AmeriCorps National Direct grant which should
have been claimed to the California Commission grant for operations at USVI’s Long Beach
site. This error was discovered by the audit team during fieldwork and subsequently adjusted
by USVI on the September 30, 2006, FSR. The error occurred because the National Direct
grant had included the Long Beach site during program years 2003/2004. When Long Beach
switched to the Commission grant, USVI continued charging the match costs to the National
Direct grant.

In-Kind Supervision
USVI claimed as in-kind match, the estimated time spent by site supervisors who oversaw
the activities of AmeriCorps members. The basis of the effort was an estimated 2.5
supervisory hours per 10 member hours served. USVI has stated that the estimate was
originally computed for purposes of budgeting and proposals but has since been used on each
in-kind certification. We could not identify any form of alternative documentation to assess
the actual level of effort that was provided in supervising AmeriCorps members. As a result,
we have questioned all the estimated costs claimed toward grant match.

Donated In-Kind Goods
We noted problems with costs USVI claimed for donated goods as follows:

          •    The donor certificates had not always been signed by the donor;
          •    The value of the donated items had sometimes been assigned by USVI
               personnel; and
          •    The allocability of donations to the AmeriCorps program could not always be
               established.

Our efforts to establish allocability of some of the donated goods to the AmeriCorps program
were unsuccessful. We contacted some donors to inquire whether the donated items were for
the AmeriCorps program. Their answers included statements indicating they had never heard
of AmeriCorps. USVI attempted to re-certify some of the donated items by getting
signatures from individuals who had not previously signed the certificates. In three
instances, we called these donors and found that, although a signature had been included on
the re-certification, the individual stated they never signed the re-certification. The current
re-certifications purport to support expenses that are two to three years old and we can not
rely on them.

Following is an example of donated goods questioned:

                                              27
           •   Krispy Kreme donuts - $7,000;
           •   Food and drinks for veteran event - $3,500;
           •   Costco gift cards - $450;
           •   Clothing, shoes and hygiene items from an individual - $500;
           •   Candy, chocolates, key chains, change purses from Hale Koa Hotel - $500.

Other In-Kind Services
USVI claimed the costs of services which were not verifiable or not properly supported. This
precluded us from determining the allowability, allocability or reasonableness of these costs
claimed to the grant match. Examples included:

           •   Accounting Services - $176;
           •   Training Services – $6,161;
           •   Public Relations/Marketing Services - $72,350;
           •   Use of rental truck - $11,196; and
           •   Donation of 30 hospital beds - $9,000.

Documentation supporting the public relations/marketing services was limited to a December
2, 2004, e-mail sent to USVI’s CEO from the President and CEO of SMA Global that stated:

     “I’m confirming our various conversations this past year and recently in which
     we’ve agreed that SMA Global has donated services for the period January 1,
     2004 – June 30, 2005 (18 months) with a value of $4,000 per month totaling
     $72,000 of which $48,000 was provide during 2004 and $24,000 will be provided
     during the first half of 2005.”

We are questioning this match cost for lack of support because we were not provided any
record of services provided, and the fact that SMA Global was merely anticipating providing
services. The services for the month of December 2004 and for six months in 2005 had yet
to be performed and therefore were merely anticipated.

The lack of required matching funds may prevent USVI from carrying out eligible activities,
fully meeting program goals and requirements and maximizing the effectiveness of its
programs.

Criteria

45 C.F.R. § 2543, Grants and Agreements With Institutions of Higher Education, Hospitals,
and Other Non-Profit Organizations. Subsection 2543.23, Cost Sharing and Matching
states:

       (a) All contributions, including cash and third party in-kind, shall be accepted as part
       of the recipient’s cost sharing or matching when such contributions meet all of the
       following criteria.

                                              28
  (1) Are verifiable from the recipient’s records.
  (2) Are not included as contributions for any other federally-
     assisted project or program.
  (3) Are necessary and reasonable for proper and efficient
      accomplishment of project or program objectives.
  (4) Are allowable under the applicable cost principles.
  (5) Are not paid by the Federal Government under another award,
     except where authorized by Federal statute to be used for cost sharing
      or matching.
  (6) Are provided for in the approved budget when required by the
     Federal awarding agency.
  (7) Conform to other provisions of this Circular, as applicable.

                                   *        *         *

 (d) Volunteer services furnished by professional and technical personnel, consultants,
and other skilled and unskilled labor may be counted as cost sharing or matching if
the service is an integral and necessary part of an approved project or program. Rates
for volunteer services shall be consistent with those paid for similar work in the
recipient’s organization. In those instances in which the required skills are not found
in the recipient organization, rates shall be consistent with those paid for similar work
in the labor market in which the recipient competes for the kind of services involved.
In either case, paid fringe benefits that are reasonable, allowable, and allocable may
be included in the valuation.

(e) When an employer other than the recipient furnishes the services of an employee,
these services shall be valued at the employee’s regular rate of pay (plus an amount of
fringe benefits that are reasonable, allowable, and allocable, but exclusive of
overhead costs), provided these services are in the same skill for which the employee
is normally paid.

(f) Donated supplies may include such items as expendable equipment, office
supplies, laboratory supplies or workshop and classroom supplies. Value assessed to
donated supplies included in the cost sharing or matching share shall be reasonable
and shall not exceed the fair market value of the property at the time of the donation.

                                   *        *         *

(h) The value of donated property shall be determined in accordance with the usual
accounting policies of the recipient, with the following qualifications.

                                   *        *         *

  (5) The following requirements pertain to the recipient’s supporting records for in-
      kind contributions from third parties.

                                       29
                   (i) Volunteer services shall be documented and, to the extent
                        feasible, supported by the same methods used by the recipient for its
                        own employees.
                   (ii) The basis for determining the valuation for personal service,
                        material, equipment, buildings and land shall be documented.

This finding is also considered to be an internal control weakness.

Recommendations

Recommendation 8: The Corporation should disallow the questioned costs, including
applicable overhead and G&A costs, and consider those costs in its computation discussed
below under Recommendation number 12.

Recommendation 9: The Corporation should ensure that USVI obtains appropriate
documentation for actual member hours supervised for future claims.

Recommendation 10: The Corporation should direct USVI to ensure that donated goods and
services charged to the AmeriCorps grants are necessary and reasonable.

Recommendation 11: The Corporation should direct USVI to prevent errors by more closely
scrutinizing costs claimed to match prior to FSR submissions.

Recommendation 12: The Corporation should review match costs beyond the scope of this
audit and determine the allowable match for the grant. The Corporation should disallow the
unmatched Federal share if the allowable match falls short of the required amount.


USVI’s Response

USVI disagrees with the finding and contends that although mistakes were found, claimed
match meets the requirements of the grant. USVI specifically denies that VA funds were
used as match and states that donated in-kind goods and services questioned are valid match
costs. USVI also offers that, in some cases, further supporting documentation can be
provided during audit resolution to refute the finding.

Auditor’s Comment

Match costs claimed on this grant prior to the November 15, 2005, VA letter include VA
grant funds.     USVI never retroactively adjusted the charges after receiving the VA’s
notification on match. Moreover, USVI had knowledge of the match restrictions based on
the April 30, 1997, memorandum noted above.

The exceptions noted in the audit report were disclosed during fieldwork leaving USVI with
eight months in which to either provide further supporting documentation or further state its

                                              30
case. We find it troublesome that audit evidence was not provided for our review during this
span of time. We reiterate our recommendation that USVI improve its approach in
accumulating and reporting match costs on its FSRs.


Finding 4:   USVI lacked controls to ensure AmeriCorps member program
requirements were followed.


We found non-compliance with member requirements which affected the allowability of
costs claimed.


         Description              Federal          Grant        Education   Reference
                                   Share           Match         Award
Lacked Proof of Citizenship
                                   $ 6,395         $ 1,129      $ 14,520       A
Insufficient    Hours     for         -               -
Education Award                                                   18,900       B
Partial Education Award                -              -
without Compelling Reason                                          4,031       C
Members Serving 3rd Term            25,033            -             -          D
Living Allowance Claimed
above Ceiling                         2,575           -             -          E
Living Allowances Claimed
for Education Award Only                                                        F
Members                               4,690           -             -
Members Not Enrolled in               4,760               830       -          G
Program
Nevada Members Claimed to             4,564               805      9,450       H
the National Direct Grant
Member Duties not Allocable         94,877          16,743        41,675        I
to Program
Employees Earned Education             -               -         160,650        J
Awards
             Total                $142,894         $ 19,507     $249,226

A. Proof of Citizenship
During our initial testing, USVI was unable to provide proof of citizenship for seven
members. However, birth certificates for two members were later obtained during fieldwork.
As a result, we did not question living allowances for those members. Four of the remaining
five members in question were Education Award Only (EAO) members which we
questioned. We questioned the living allowance and the education award of the remaining
member.


                                              31
AmeriCorps Provisions (2003), Section A.14. Definitions, Member, states:

   Member means an individual: . . . b. Who is a U.S. citizen, U.S. national or
   lawful permanent resident alien of the United States.

B. Questioned Education Awards
Education awards were questioned for six members either due to errors in the computation of
the timesheets or missing timesheets. We identified computational errors on timesheets of
four other members. These errors, however, did not affect education awards because the
members did not earn them.

AmeriCorps Provisions (2003), Section C.22.c. Financial Management Provisions, Time and
Attendance Records, states:

   ii. AmeriCorps Members. The Grantee must keep time and attendance records
   on all AmeriCorps members in order to document their eligibility for in-service
   and post-service benefits. Time and attendance records must be signed and
   dated both by the member and by an individual with oversight responsibility for
   the member.

C. Partial Education Award
A partial education award was granted to a member who exited the program early due to
behavioral problems. Members are not eligible for partial education awards due to
behavioral problems per the grant provisions. As a result, we questioned the partial
education award.

AmeriCorps Provisions (2003), Section B.9.a. Release from Participation, Compelling
Circumstances, states:

   Compelling personal circumstances include those that are beyond the member’s control,
   such as, but not limited to:

          i. A member’s disability or serious illness;
         ii. Disability, serious illness or death of a member’s family member if this makes
             completing a term unreasonably difficult or impossible; or
        iii. Conditions attributable to the program or otherwise unforeseeable and beyond
             the member’s control, such as a natural disaster, a strike, relocation of a spouse,
             or the non renewal or premature closing of a project or program, that make
             completing a term unreasonably difficult or impossible.

D. Third Term Members
We identified four members who received living allowances for three consecutive terms. We
have questioned the living allowances for the third terms.

AmeriCorps Provisions (2003), Section B.12. Post-Service Education Awards, states in part:

                                              32
   No Corporation or other federal funds may be used to provide member support
   costs for a third or subsequent term of service in an AmeriCorps State or
   National Program.

E. Living Allowance Claimed Above Established Ceiling Limits
We identified eight instances of costs claimed to the grant for member living allowances in
excess of the established 85 percent limitation. As a result, we have questioned the amount
claimed exceeding the limitation.

AmeriCorps Provisions (2003), Section B.11. Living Allowances, Other In-Service Benefits
and Taxes, states in part:

   a. Living Allowances. Unless otherwise agreed upon, a Grantee must provide a
   living allowance to full-time members in accord with the following:

   i. Full-Time Requirements. … The Corporation will only fund up to 85% of the
   minimum living allowance. A minimum of 15% must be matched by non-federal
   sources.

F. Living Allowances Claimed for EAO Members
We questioned four instances of living allowances paid to members whose enrollment was
termed Education Award Only. Living allowances can be paid to EAO members by the
grantee, but cannot be charged to the grants.

G. Unsupported Member Living Allowances
The cost of living allowances was claimed for three persons whose member status could not
be verified. These persons were not listed as members in the Web Based Reporting System
(WBRS) nor did they have a member file. Based on information available to us during
fieldwork, we could not determine whether they met the criteria to be AmeriCorps members.
As a result, we questioned the living allowances for these three members.

H. Nevada AmeriCorps Members
We identified three members who performed services under assignment to the Nevada
Commission grant but whose living allowances were claimed to USVI’s National Direct
grant. As a result, we questioned these living allowances as well as the education awards
earned by two of the members.

OMB Circular A-122, Attachment A, General Principles, Paragraph A.4., Basic
Considerations, Allocable Costs, states:

       a. A cost is allocable to a particular cost objective, such as a grant, contract, project,
       service, or other activity, in accordance with the relative benefits received. A cost is
       allocable to a Federal award if it is treated consistently with other costs incurred for
       the same purpose in like circumstances and if it:

                                              33
       (1) Is incurred specifically for the award.
       (2) Benefits both the award and other work and can be distributed in reasonable
       proportion to the benefits received, or
       (3) Is necessary to the overall operation of the organization, although a direct
       relationship to any particular cost objective cannot be shown.

       b. Any cost allocable to a particular award or other cost objective under these
       principles may not be shifted to other Federal awards to overcome funding
       deficiencies, or to avoid restrictions imposed by law or by the terms of the award.

I. Member Duties not Allocable to Program
We found members whose activities were considered prohibited or were not allocable to the
grant. Those activities include:

           • Two members stated that they had never performed services related to
             veterans.
           • Four members performed administrative services for USVI.
           • Three members performed services for CAI, including janitorial work,
             assisting in the preparation of lease agreements, processing veterans into
             Transitional and Long Term Housing, and acting as the receptionist at the
             Westside Residence Hall site.

OMB Circular A-122, Attachment A, General Principles, Basic Considerations, Paragraph
A.4., states:

       a. A cost is allocable to a particular cost objective, such as a grant, contract, project,
       service, or other activity, in accordance with the relative benefits received. A cost is
       allocable to a Federal award if it is treated consistently with other costs incurred for
       the same purpose in like circumstances and if it:
       (1) Is incurred specifically for the award.
       (2) Benefits both the award and other work and can be distributed in reasonable
       proportion to the benefits received, or
       (3) Is necessary to the overall operation of the organization, although a direct
       relationship to any particular cost objective cannot be shown.

       b. Any cost allocable to a particular award or other cost objective under these
       principles may not be shifted to other Federal awards to overcome funding
       deficiencies, or to avoid restrictions imposed by law or by the terms of the award.

45 C.F.R. § 2540.110, General Administrative Provisions, states in part:

       f. Non-displacement. . . . (5) A participant in any program receiving assistance under
       this chapter may not perform services or duties that have been performed by or were
       assigned by any – (i) Presently employed worker; (ii) Employee who recently

                                              34
       resigned or was discharged; (iii) Employee who is subject to a reduction in force or
       who has recall rights pursuant to a collective bargaining agreement or applicable
       personnel procedures; (iv) Employee who is on leave (terminal, temporary, vacation,
       emergency, or sick) or (v) Employee who is on strike or who is being locked out.

OMB Circular A-122, 4.a. Definitions, states:

       Non-profit organization means any corporation, trust, association, cooperative, or
       other organization which: . . . (2) is not organized primarily for profit;

Employees Earning Education Awards
We found 22 AmeriCorps members who were actually employees of USVI or one of USVI’s
placement sites and who had earned an education award. We determined that the members
were employees based on interviews of the members or their supervisors, and reviews of
timesheets and personnel files. We also reviewed an interview conducted by HUD-OIG on
March 22, 2005, of USVI’s CEO, in which she confirmed one of the members in question
was an employee as shown below:

       “CEO stated that she does not agree with many of the items the HUD-OIG identified as
       questionable.    For example, CEO explained HUD-OIG Audit’s disallowance of
       approximately $20,000 in salary paid to an individual named XXXX. According to CEO,
       XXX worked in the US Vets Veterans Activities program as a receptionist and assistant.
       CEO explained that XXXX took phone calls and handled the mail; however, XXXX also
       helped veterans become acclimated to the program. CEO stated that XXXX wrote the office
       directory for the program and while doing so, XXXX gave herself the title of
       Receptionist/Assistant since she performed both duties.”

These members also counted their employee work hours as service hours. As a result, we
questioned their education awards. We also determined that there were eight other
employees who had recorded their regular employment hours as service hours. These
persons, however, had not yet been certified for education awards.

AmeriCorps Provisions (2003), Section 6. Eligibility, Recruitment, and Selection, states in
   part:

      f. Member Classification. AmeriCorps members are not employees of the
      Program or of the federal government. The definition of “participant” in the
      National and Community Service Act of 1990 as amended applies to
      AmeriCorps members. As such, “a participant (member) shall not be considered
      to be an employee of the Program in which the participant (member) is
      enrolled”. Moreover, members are not allowed to perform an employee’s duties
      or otherwise displace employees.

These problems stem from USVI’s lax approach in administering the grant, as well as its lack
of clear understanding of specific grant provisions. We also have determined that the


                                                35
delineation established by USVI between roles of AmeriCorps members and the roles of
USVI and CAI employees is vague.


This finding is also considered to be an internal control weakness.

Recommendation

Recommendation 13: The Corporation should review the records of all USVI AmeriCorps
members, on this grant and the ongoing grant, to ensure they are not also working
concurrently as USVI or site employees.

Recommendation 14: The Corporation should recoup education awards certified by USVI
for members who were also employees. Any education awards not yet used by these
employees should be de-certified.

Recommendation 15: The Corporation should require USVI to establish policies to prevent
employees from serving as a member and ensure these policies are enforced at all USVI sites.

USVI’s Response

USVI disagrees with the finding, but acknowledges that mistakes were made. USVI
contends that controls are in place to ensure AmeriCorps member program requirements are
followed.

Auditor’s Comment

The results of our testing were based on a sample of member files. The pervasiveness of
exceptions noted within our sample conflict with USVI’s response that it has controls in
place to ensure program requirements are followed. We continue to recommend that policies
be established to address each area of noncompliance noted within this finding.


Finding 5:     USVI claimed unallowable rent to the grant.

USVI claimed costs it paid to CAI and Century Housing for the allocated portion of rent
specific to its AmeriCorps program, as well as other Federal programs. Our examination of
rent revealed costs to be questionable under three conditions:

               •   Less-than-arms-length – Questioned Costs $113,871;
               •   Allocation not verifiable – Questioned Costs $53,595; and
               •   Allocated to the wrong grant – Questioned Costs $5,839.




                                              36
The $53,595 above can also be questioned because the basis of the allocation of rent paid to
Century Housing could not be determined. The rental cost of $5,839 can also be questioned
because these costs support the California Commission Grant.

Less-than-arms-length

A ruling issued to USVI via letter by the VA’s Associate Chief Consultant on March 24,
2004, stated that the rent payments involving USVI and CAI were less-than-arms-length.
This ruling was reaffirmed in another letter from the VA’s Associate Chief Consultant on
September 7, 2004. The VA agreed to reconsider the matter based on USVI’s appeal. USVI
is currently awaiting a final determination by the VA General Counsel.

But without regard to what we believe were correct decisions by the VA, we, in auditing
USVI can not fully perform this audit without making our own decision on that issue. We
agree with VA’s original ruling and have determined transactions related to the rent expenses
are less-than-arms-length. Our decision is based on our determination that USVI and CAI
are related parties. We believe the two entities are related for the following reasons:

       •   The influence of CAI’s President over the USVI programs throughout the
           country, as shown in our discussion of the HUD interviews below. CAI’s
           President also represented USVI in sworn testimony before Congress on
           March 9, 2000, and March 16, 2006.
       •   The long personal relationship that has existed between the USVI’s CEO
           and the CAI’s President. OIG representatives were told that they are
           currently engaged to be married.
       •   The frequency with which both CAI’s President and USVI’s CEO jointly
           conduct official USVI business.
       •   The sharing of resources by the two entities. For example, we found that
           some USVI AmeriCorps members performed duties that directly or
           indirectly benefited CAI.
       •   The documented involvement of CAI’s President at USVI board of director
           meetings.
       •   USVI’s Controller was originally hired by CAI’s President as a CAI
           employee, and then reassigned to USVI without any change in the person’s
           job description.
       •   USVI and CAI organizations share the same Internet web site.
       •   USVI, CAI, and several of its related entities organizations are all located at
           the same Inglewood, CA property owned by CAI.
       •   During the period 1993 through 1996, the President of CAI also served as
           the Executive Director of USVI. During that period, USVI bound itself to a
           form of joint venture with CAI involving Westside Residence Hall. This
           created the relationship between USVI and CAI which continues to the
           present date, governing each of their joint venture sites.
       •   USVI’s 2005 financial statements show a note-payable balance owed to
           CAI of $516,000 and another outstanding balance owed of $385,000. The

                                              37
           origins and purpose of the loans are unclear, as are the terms and conditions
           for repayment. Statement of Auditing Standards, Section 334.03, states that
           an indication of a related party transaction is one where there is a loan
           between parties where there is “no scheduled terms for when or how the
           funds will be repaid” and where there is “borrowing or lending on an
           interest-free basis or at a rate of interest significantly above or below market
           rates.”
       •   The financial structure of the Joint Venture Agreements (JVA) between
           USVI and CAI, whereby the proceeds generated from activities performed
           by USVI are to be evenly split between the two entities. We believe this
           revenue is the result of activities of USVI Federal awards and is discussed
           below.
       •   In 1998, the USVI CEO and CAI President entered into a Business Services
           Agreement (BSA) wherein CAI would provide “‘accounting services” and
           “consulting services” to USVI. The agreement was entered into without
           public announcement of the bid and competition as required.
       •   Under the “accounting services” portion of the BSA, CAI was assigned
           financial management responsibilities for USVI such as maintaining USVI’s
           general ledger, preparing USVI’s budget, and maintaining USVI’s financial
           statements records. CAI also was assigned personnel administration
           responsibilities for USVI such as payroll, insurance benefits, and records
           administration.
       •   Under the “consulting services” portion of the BSA, CAI was to perform a
           described “broad range of services,” such as designing and overseeing
           “strategies” for services to be delivered to veterans; acting as liaison with
           USVI’s Federal funding sources, including the Department of Veterans
           Affairs, Department of Health and Human Services, and Department of
           Housing and Urban Development; and consulting with USVI officials on
           staffing, revenue, budgeting, and “program compliance.”
       •   The BSA expired in June 2000, but CAI continued to perform and USVI
           made payments under the agreement through 2003.

Joint Venture Agreements
The joint venture agreements were established at sites in Inglewood, Hawaii, Houston and
Las Vegas. Each agreement stipulates that 50 percent of net income is to be paid to USVI
and the remaining 50 percent to remain with CAI. This is income which is generated at the
various operating sites throughout the country, and as we have discussed in finding number
4. above, was sometimes generated through the use of AmeriCorps members. Based on the
joint venture agreements and the organizational structure, it is apparent that CAI has a
financial stake in the operations of USVI. It receives fees for each bed filled and receives
rent from veterans who have been brought into the facilities by either USVI personnel or
AmeriCorps members.

CAI’s President entered into the above-mentioned JVA between Westside and USVI in 1993.
This JVA established policies and procedures for the operations of USVI that remain in

                                              38
effect to this day. By its terms, the JVA shows that CAI, through Westside, has, as cited by
                                                                                             3
Statement of Financial Accounting Standards (SFAS) No. 57, Related Party Disclosures ,
“the power to direct or cause the direction of the management . . . of an enterprise . . ., by
contract;” that CAI has “significant influence over the management or operating policies” of
USVI; and that CAI prevents USVI from “fully pursuing its own separate interests.” The
following terms of the JVA exemplify this control:

         i. USVI’s right to contract is controlled by CAI.

         ii. USVI’s financial plans and reports require prior approval from CAI.

         iii. USVI must obtain prior approval from CAI to engage in “other business”.

HUD Interviews
Correspondence between HUD and USVI, and excerpts from the HUD OIG interviews with
USVI employees, disclosed the following:

         •        CAI’s President and USVI’s CEO had overlapping duties;
         •        CAI’s President gave instructions regarding the operation of USVI site(s) and
                  was considered “the boss;”
         •        Confusion as to who worked for CAI and who worked for USVI;
         •        Pressure applied from CAI’s President on USVI to keep beds full and
                  assistance as to how to better perform outreach and bring in more veterans;
                  and
         •        CAI’s President and USVI’s CEO were romantically involved.

We have determined that, based on the arrangements described above, the two parties are
related and rent paid to CAI from USVI was not at arms-length. As a result, these
transactions do not meet established cost principles and such should not be claimed.

Questioned costs on this grant award, due to the less-than-arms-length lease are as follows:

                                                             Questioned Costs
                     Program Year                Corporation Share            Match
                         03-04                       $ 53,595                $ -
                         04-05                         51,642                  4,641
                         05-06                          8,634                 14,500
                         Total                       $113,871                $19,141

3
   SFAS 57 defines “related parties” as “[a]ffiliates of the enterprise; . . . and other parties with which the
enterprise may deal if one party controls or can significantly influence the management or operating polices of
the other to an extent that one of the transacting parties might be prevented from fully pursuing its own separate
interests.” Also, a party is a related party if “it has an ownership interest in one of the transacting parties and
can significantly influence the other to an extent that one or more of the transacting parties might be prevented
from fully pursuing its own separate interests.” (emphasis added).


                                                        39
Allocation not Verifiable
During Program Year 03/04, rent for the Long Beach facility was paid to Century Housing.
We examined the lease between USVI and Century Housing and found only mention of the
VA and programs pertaining to the VA. We requested that USVI support the basis of rent
costs allocated to the grant but never received a response. The rent costs of $53,595 are
questioned for less-than-arms-length and also because the allocation is not verifiable and
therefore unsupported.

Allocated to the wrong grant
We determined that, in addition to the problem of less-than-arms-length identified above,
some of the same costs are questionable on the basis of allocability. Specifically, some rent
charges should have been charged to the California Commission grant and were therefore not
allocable to the National Direct grant, as shown in the table below.

                                                     Questioned Costs
                 Program Year           Corporation Share             Match
                     03-04                   $4,173                  $-
                     04-05                    5,002                    -
                     05-06                   (3,336)                  58
                     Total                   $5,839                  $58

Criteria

OMB Circular No. A-122, Attachment A, General Principles, Basic Considerations,
Paragraph A.2., states:

       Factors affecting allowability of costs. To be allowable under an award, costs must
       meet the following general criteria:

              a. Be reasonable for the performance of the award and be allocable thereto
              under these principles.

              b. Conform to any limitations or exclusions set forth in these principles or in
              the award as to types or amount of cost items.

              c. Be consistent with policies and procedures that apply uniformly to both
              federally-financed and other activities of the organization.

              d. Be accorded consistent treatment.

              e. Be determined in accordance with generally accepted accounting principles
              (GAAP).




                                             40
OMB Circular No. A-122, Attachment B, Selected Items of Cost, Paragraph 43. Rental Costs,
states:

       a. Subject to the limitations described in subparagraphs b through d, rental costs are
       allowable to the extent that the rates are reasonable in light of such factors as: rental
       costs of comparable property, if any; market conditions in the area; alternatives
       available; and the type, life expectancy, condition, and value of the property leased. . .
       .

       b. Rental costs under sale and leaseback arrangements are allowable only up to the
       amount that would be allowed had the non-profit organization continued to own the
       property. . . .

       c. Rental costs under less-than-arms-length leases are allowable only up to the
       amount that would be allowed had title to the property vested in the nonprofit
       organization. For this purpose, a less-than-arms-length lease is one under which one
       party to the lease agreement is able to control or substantially influence the actions of
       the other. Such leases include, but are not limited to those between (i) divisions of a
       non-profit organization; (ii) organizations under common control through common
       officers, directors, or members; and (iii) a non-profit organization and a director,
       trustee, officer, or key employee of the non-profit organization or his immediate
       family either directly or through corporations, trusts, or similar arrangements in
       which they hold a controlling interest. . . . (Emphasis added)

Transactions that are less-than-arms-length do not meet generally accepted accounting
principles and therefore do not represent allowable costs. USVI is entitled to charge rental
costs to the grant only to the extent of the cost to USVI, had title to the property vested with
USVI. The cost of ownership can best be calculated using CAI records.

This finding is also considered to be an internal control weakness.

Recommendation

Recommendation 16: The Corporation should disallow and recover the questioned costs
including applicable overhead and G&A costs. The Corporation should also disallow the
difference between the lease and ownership costs charged to its grants that were not included
in this audit.

Recommendation 17: The Corporation should instruct USVI to cease claiming rental costs
paid to CAI to ongoing grants and subgrants.

USVI’s Response

With the exception of $5,002, USVI disagrees that rent claimed to the grant is unallowable.
USVI also contests 10 of the 15 items presented to establish that USVI and CAI are related
parties.
                                              41
Auditor’s Comment

USVI’s response makes clear that it does not contest five of the grounds listed which support
the opinion that the relationship between USVI and CAI is at less than arm’s length. For
those 10 items it contested, USVI failed to support its position.

For example, USVI does not question the factual accuracy of the statement in the audit report
that Tim Cantwell, President of Cantwell Anderson Inc., and Stephani Hardy, then Executive
Director or CEO of USVI, had a “long standing personal relationship” and are now
“engaged.” Rather, USVI simply asserts that the “regulations governing arm’s-length
transactions” do not expressly include these two relationships as evidence of non-arm’s-
length relationships. The regulations do not specify each type of relationship which supports
a non-arm’s-length transaction. Rather, they set forth the general nature of that relationship.
OMB Circular A-122, Attachment B, Selected Items of cost, Paragraph 43, Rental Costs ( c )
states:

       “Rental costs under less-than-arms-length leases are allowable only up to the
       amount…that would be allowed had title to the property vested in the nonprofit
       organization. For this purpose, a less-than-arms-length lease is one under which
       one party to the lease agreement is able to control or substantially influence the
       actions of the other. Such leases include, but are not limited to those between
       divisions of a non-profit organization; non-profit organizations under common
       control through common officers, directors, or members; and a non-profit
       organization and a director, trustee, officer, or key employee of the non-profit
       organization or his immediate family either directly or through corporations,
       trusts, or similar arrangements in which they hold a controlling interest.”

In addition, as included in footnote 2, SFAS 57 defines related parties as “[a]ffiliates of the
enterprise; …and other parties with which the enterprise may deal if one party controls or can
significantly influence the management or operating policies of the other….” Neither the
OMB Circular or the SFAS specifically list the relationships that constitute a less-than-arms-
length transaction; the ability of one party to influence or control the other is the determining
factor in our finding. In our judgment, evidence of the relationship between USVI and CAI,
commencing in 1993, demonstrates that CAI has long possessed the ability to influence or
control USVI and therefore the two parties are related.

USVI’s only other major response, to the OIG findings that “CAI’s President and USVI’s
CEO jointly conduct official USVI business,” label it as “inaccurate and misleading”. But,
the response further includes the statement that “CAI’s President and other members of CAI
staff often conducted business . . . at each of the sites in which USVI administers programs”
with “USVI’s CEO . . . . [having] traveled to sites at the same time, attended meetings
together, lunches and dinners together . . . .˝ The Business Service Agreement, which did not
result from a competitive procurement, and various joint venture agreements, referred to in
the USVI response as the “collaboration of U.S. VETS,” are two examples of the level of the
relationship between the entities.

                                               42
Finding 6:     USVI program results were not clearly defined.

Program results were commingled among the various funding agencies. USVI members
provide services to various programs under grants from other Federal agencies, making it
difficult to accurately summarize the performance results of a particular grant. As a result,
program results reported through WBRS and used for grant applications to the Corporation
are not always clearly supported.

The Office of Management and Budget describes performance measurements as follows:

       “Performance measurement indicates what a program is accomplishing and whether
       results are being achieved. It helps managers by providing them information on how
       resources and efforts should be allocated to ensure effectiveness. It keeps program
       partners focused on the key goals of a program. And, it supports development and
       justification of budget proposals by indicating how taxpayers and others benefit.”

Criteria
AmeriCorps Provisions, Section B.18 Performance Measurement and Evaluation, states in
part:

        All grantees must establish, track, and evaluate performance measures (i.e., outputs,
        intermediate-outcomes, end-outcomes) for their programs. (Emphasis added)

This finding is also considered to be an internal control weakness.

Recommendation

Recommendation 18: We recommend the Corporation work with USVI to identify and
report results specific to Corporation grants to better assess the strengths and weaknesses of
the program.

USVI’s Response

USVI disagrees with the finding and asserts that program results are clearly defined. USVI’s
response states that program results reported to the Corporation include only homeless
veterans served by AmeriCorps members.

Auditor’s Comment

Based on the audit, we believe that the results of the program are tracked in total with
combined funding sources. USVI’s response included no documentation to support that only
homeless veterans, served by AmeriCorps members, were included in the reported program
results.




                                              43
Finding 7:        USVI did not consistently comply with specific grant provisions

We tested 138 member files and noted the following exceptions:

                  •   Members at the Houston site serving vulnerable veterans in HUD’s
                      Critical Intense Program did not undergo required criminal background
                      checks. The veterans were considered vulnerable because they were
                      classified as dual disorder (chemically dependent and mentally
                      challenged). This program began in February 2006. The Houston’s Site
                      Director stated that background checks would be “useful.”
                  •   Five member files did not contain evidence of mid- or end-of-term
                      evaluations.
                  •   Member timesheets did not reflect training hours in 30 instances. Rather,
                      all hours were coded as “service” hours.
                  •   Seventy-eight enrollment forms were not recorded in the Web Based
                      Reporting System (WBRS) within the prescribed 30- day period.
                  •   Forty-two exit forms were not recorded in WBRS within the prescribed 30
                      days after members ended their service.
                  •   Two out of two change-of-status forms tested were not recorded in WBRS
                      within the prescribed 30-day period.

Criteria

The AmeriCorps Provisions (2003), Section B.6.h., Eligibility, Recruitment, and Selection,
states:

       Programs with members or employees who have substantial direct contact
       with children (as defined by state law) or who perform service in the homes of
       children or individuals considered vulnerable by the program, shall, to the
       extent permitted by state and local law, conduct criminal record checks on these
       members or employees as part of the screening process. This documentation
       must be maintained consistent with state law.


AmeriCorps Provisions, Section B.16.b. AmeriCorps Member-Related Forms, states:

           i.         Enrollment Forms. Enrollment forms must be submitted no later than 30
                      days after a member is enrolled.

                      *    *     *

           iii.       Exit/End-of-Term-of-Service Forms.          Member Exit/End-of-Term-of-
                      Service Forms must be submitted no later than 30 days after a member
                      exits the program or finishes his/her term of service.


                                                44
AmeriCorps Provisions, Section B.7.g., Performance Reviews, states:

       The Grantee must conduct and keep a record of at least a midterm and end-of-term
       written evaluation of each member’s performance.

AmeriCorps Provisions, Section B.7.c., Training, states:

       The Grantee must conduct an orientation for members and comply with any pre-
       service orientation or training required by the Corporation.

We note that, although USVI management visited its operating sites throughout the country,
it did not formally document the monitoring procedures and results of its visits.
Documentation of these visits was limited to travel vouchers and e-mails indicating that visits
had taken place. As a result, we can not properly assess the quality of the monitoring or
determine if the exceptions above were caused by deficient monitoring.

Without monitoring tools and reports, USVI cannot properly review, track, and monitor the
activities of its operating sites and objectives of the AmeriCorps program. In addition,
without current member and financial information, the Corporation may be unable to make
timely and effective management decisions.

This finding is also considered to be an internal control weakness.


Recommendation

Recommendation 19: The Corporation should require that USVI formally document its
monitoring of its operating sites and stress the importance of grant provision compliance to
all its AmeriCorps Directors. The Corporation should review the results of USVI’s
monitoring to ensure the recommendation is implemented.


USVI’s Response

USVI disagrees with the finding and believes it consistently complies with grant provisions.
However, USVI acknowledges that mistakes were made.


Auditor’s Comment

We believe that due to the number of exceptions noted, it is apparent that compliance
monitoring of certain grant provisions has not occurred. We reiterate the importance of
developing policies and procedures for monitoring operating sites to prevent these non-
compliances.



                                              45
Internal Control Findings

Finding 8: USVI does not have policies and procedures for drawdowns.

USVI policies and procedures do not include withdrawing funds from the Department of
Health and Human Services’ payment management system (PMS). USVI does not have
written policies and procedures for withdrawing funds because there is one employee who
has always performed this role and knows how to request drawdowns. Without policies and
procedures, USVI drawdowns may be improper or may not be able to be performed in the
absence of that one employee.

Criteria

45 C.F.R. § 2543, Grants and Agreements With Institutions of Higher Education, Hospitals,
and Other Non-Profit Organizations. Subsection 2543.21(b)(5), Standards for financial
management systems, states recipients shall provide, “[w]ritten procedures to minimize the
time elapsing between the transfer of funds to the recipient from the U.S. Treasury and the
issuance or redemption of checks, warrants or payments by other means for program
purposes by the recipient.”

45 C.F.R. § 2543, Grants and Agreements With Institutions of Higher Education, Hospitals,
and Other Non-Profit Organizations. Subsection 2543.21(b)(6), Standards for financial
management systems,. states recipients shall provide, “[w]ritten procedures for determining
the reasonableness, allocability and allowability of costs in accordance with the provisions of
the applicable Federal cost principles and the terms and conditions of the award.”

Recommendation

Recommendation 20: The Corporation should direct USVI to establish policies and
procedures to document its drawdown process and ensure these are implemented.


USVI’s Response

USVI disagrees with the finding and makes reference to its Cash Drawdown policy.
However, USVI agrees to expand the policy to include specific procedures for utilization of
the HHS payment management system.


Auditor’s Comment

The policy to which USVI refers is very general and does not contain sufficient detail on how
it performs drawdowns. For example, the policy does not address the roles and
responsibilities of USVI employees involved in the drawdowns. We continue to recommend
that the Corporation work with USVI to develop an acceptable policy.

                                              46
Finding 9: USVI has not updated its job descriptions

We determined that USVI had not kept job descriptions current as roles have changed.
Specifically, we determined the following:

               •   USVI Controller – The current job description states that the Controller is
                   an employee of CAI. The Controller became a USVI employee in mid
                   2005. However, his new role as USVI Controller had not been defined in
                   a formal and updated job description.

               •   USVI CEO – The current job description describes the role as Executive
                   Director. However, in mid 2005, the title was changed from Executive
                   Director to Chief Executive Officer. The job description has never been
                   updated to reflect the new title and any new responsibilities associated
                   with it.


Criteria

Job descriptions are an important component of internal controls and should contain enough
detail to track the labor charges to determine the allocability of the labor charges to Federal
grants, and to describe whether the effort is indirect or direct.


Recommendation

Recommendation 21: The Corporation should direct USVI to review all job descriptions to
ensure that they currently reflect the expectations and positions held by USVI employees.


USVI’s Response

USVI disagrees with the finding because it believes the employees’ roles have not changed.


Auditor’s Comment

USVI did not explain why the Controller’s job description, which included detailed CAI
employee benefit information, was not changed when he began employment with USVI. We
believe that whenever titles or positions change between entities, an updated job description
should be prepared. Establishing a formal document will assist in clearly defining roles and
responsibilities.




                                              47
Finding 10: An FSR variance went undetected by the grantee

USVI’s finance department noticed an error, overstating costs claimed by $30,526, in its
March 31, 2006, FSR only after it was assembling data for the audit team. The error revealed
that the costs claimed on the FSR were higher than the costs supported by the accounting
records. This was corrected in USVI’s September 30, 2006, FSR.

USVI lacked a policy requiring the finance department to review and approve the
accumulation and reporting of data claimed on its FSR. As a result, errors were not
discovered in a timely manner.


Criteria

AmeriCorps Provisions, Section B.21.a. Accountability of Grantee states:

       The Grantee has full fiscal and programmatic responsibility for managing all
       aspects of the grant and grant-supported activities, subject to the oversight
       of the Corporation.


Recommendation

Recommendation 22: The Corporation should instruct USVI to establish a policy, and verify
implementation, requiring a review of all data submitted to the Corporation prior to
submission. This review process should be formalized and include the preparer’s signature
as well as that of the reviewer(s).


USVI’s Response

USVI concurs with the recommendation and has agreed to develop a more formalized
procedure in documenting the review and approval process of the FSR.


Auditor’s Comment

USVI’s response, when implemented, should improve the accuracy of FSRs.




                                             48
                                    OTHER MATTERS

Indirect Costs

USVI claimed $5,363,221 under National Direct AmeriCorps grant number 03NDHCA001
through the period ending September 30, 2006. Costs claimed toward grant match for the
same period ending were $2,079,358. Of the costs claimed, $1,667,193 was claimed as
indirect costs as shown below.

                Description         Federal Share          Grant Match
           Total Costs Claimed       $5,363,221             $2,079,358
           Indirect Costs             1,142,534                524,659
           Net Direct Costs          $4,220,687             $1,554,699

USVI has not submitted final indirect rate submissions. There has never been an audit of
USVI’s final indirect cost rates by the VA or any other Federal agency and, therefore, we
make no representation regarding the allowability, allocability or reasonableness of the
indirect costs claimed. On May 23, 2007, the Corporation’s OIG notified USVI that it had
initiated an indirect rate audit of fiscal years 2000 to 2006.

Based on the findings in this report, specifically the instances of indirect cost being charged
direct and lack of documentation supporting allocation of joint costs, we recommend the
Corporation not close grant No. 03NDHCA001 until final indirect rates are negotiated.

Evidential Matter

During fieldwork, there were instances when USVI personnel answered auditor questions,
but USVI management then contradicted those statements. There were instances during
fieldwork of USVI managers contradicting themselves. Also noted was the length of time it
took for the auditors to receive answers to specific questions and the number of questions
that were not answered. This, along with USVI’s search for supporting documents, resulted
in substantial delays to the audit process, causing fieldwork to span almost nine months and
resulting in significant costs questioned for lack of support.

We called several donors who had signed in-kind certifications to verify the accuracy of the
certificates and were told, in some instances, that the donors denied signing the documents.

Program Income

Revenue totaling $19,930,118 was generated by Westside Residence Hall from 1994 through
2005. The portion flowing through the joint venture agreement to USVI, based on CAI’s
determination of net income, has totaled only $907,754 and none of it was actually paid to
USVI, but was to be used to reduce what has been listed as outstanding loans. Stipulations in
the joint venture agreement, however, require 50 percent of the net proceeds to be paid into a
trust account in USVI’s name, to be used by USVI for the benefit of veterans. None of the

                                              49
net proceeds has been used for this purpose. Despite the fact that the joint venture
agreement, signed in 1993, required that USVI’s 50 percent share “shall be paid directly to
and deposited in a separate trust account” to “be opened by [USVI] with any bank,” no such
trust account has ever been created. According to USVI, it has never reviewed the joint
venture agreement analysis that is prepared by CAI; and USVI’s CEO, Controller and Board
of Directors could not explain the significant expenses that should be included in the
analysis.

A 1993 court order stated that “50% of net rental income (Vet proceeds) from the Inglewood
property were to be allocated to Vet services.” We consider USVI’s proceeds from the joint
venture agreement to be program income that should be reported to the Federal awarding
agencies and should be allocated to USVI and used to benefit veterans in accordance with the
court order, as well as the joint venture agreement.

Ruling from Another Agency

USVI is awaiting a ruling from HUD that may affect the costs claimed under this award.

USVI claimed Corporation funds to its HUD grant as grant cash match. HUD originally
questioned the match because USVI was unable to support its cash match requirements. A
final determination is pending by HUD on whether the Corporation grant costs can be used
as valid match costs for the HUD grant.




                                            50
Internal Controls Over Financial Reporting

In planning and performing our audit of awards costs for the period September 1, 2003 to
August 31, 2006, we considered USVI's internal controls over financial reporting in order to
determine our auditing procedures for the purpose of expressing our opinion on the financial
schedules and not to provide an opinion on the internal controls over financial reporting.
However, we noted certain matters involving the internal control over financial reporting that
we consider to be reportable conditions. Reportable conditions involve matters coming to
our attention relating to significant deficiencies in the design or operation of the internal
control over financial reporting that, in our judgment, could adversely affect USVI's ability
to record, process, summarize, and report financial data consistent with the assertions of
management in the financial statements. In addition to Internal Control findings numbered 8
through 10 above, Compliance findings numbered 1 through 7, as set forth in the Compliance
and Internal Control Findings Sections of this report, are also considered as internal control
reportable conditions.

A material weakness is a reportable condition in which the design or operation of one or
more of the internal control components does not reduce, to a relatively low level, the risk
that misstatements caused by error or fraud in amounts that would be material in relation to
the financial statements being audited may occur and not be detected within a timely period
by employees in the normal course of performing their assigned functions. Our consideration
of the internal control over financial reporting would not necessarily disclose all matters in
the internal controls that might be reportable conditions and, accordingly, would not
necessarily disclose all reportable conditions that are considered to be material weaknesses.
However, we believe Findings 1 through 4 are material weaknesses.




Mayer Hoffman McCann P.C.
Irvine, California
March 2,2007
           Appendix A



Response to the Draft Report by
United States Veterans Initiative
U n H e d S m s Yilfwens k     r   w
HOMORARY BOARD Of DfRECTOfE
Presidenl Jimmy Carter
Sidney Poilier
Oliver Slone
Dennis Franz
IN MMOrPlAM
?mMenf Cbdd Ford
Gregory Peck
Jimmy Slewad
Martha Raye
Jack Lemmon

NA TlONAL                    August 27,2007
ADVISORY BOARD
Heather French Henry
Gus I-lein               Mr. Stuart Axenfeld
Tony Orlarrdo
                         Audit Manager
BOARD OF                 1 20 1 New York Avenue, NW
DlREC TORS               Suite 830
Col. Joseph Smith
Capl. Donald Clark       Washington, DC 20525
Maurice Kane
Keith Ellis
David Farrar                 Dear Mr. Axenfeld,
Michael Dolpliin
Greg Green
Robed Jordan             This letter covers the response of United States Veterans Initiative to the Draft
Linda Miles-Celistan     Audit Report issued by your office on July 25, 2007. You are now in receipt of a
Willism Nash
Roberl Price             written response to each of your findings. You have also received this response via
Adam Siegler             email and fax. Please let me know if there are any questions. 1 can be reached at
                         3 10-348-7600 ex1 3 122.




                             Dwight Radcliff
                             Acting Chief Executive Officer
                             United States Veterans Initiative




Uhkd        VekWk3 InlUathe,a 501(c)(3)non-profit                                           733 S.Hindry Avenue
Sewing Those Who Served                                                             I n g h o a i . Celifornia 90301
                                                                                                     (310) 348-7600
                                                                                               ~.usvelsinc.org
~ & s t 27,2007                                                                    Finding I
DRAFT Audit Response

                             FINDING 1:
USVI disagrees. While mistakes were found, USVI does have adequate
 financial controls and procedures to ensure that costs are claimed in
     accordance with grant provisions and OMB's cost principles.


Personal Expenses
USVI disagrees with all but the $7.76 personal shipping fee chasge. The auditor
characterizes $1,294 of espelises incurred by USVl's CEO as personal expenses that
were NOT personal expenses. We believe this item is deliberately inisleading and contest
the questioned items for reasons stated below.

                       -
        Horne P h o ~ i e The only charges clainled from the CEO's home phone were
        work-reIated. When questioned about this, the auditor stated that there was 110
        documentation to prove that these cliarges were work related. This is not
        accurate. All phone bills wese included with phone numbers circled which could
        a11 be traced to work-related calls. It should also be noted that after August 2004,
        there were no questioned charges to AmeriCorps for the CEO's home phone.

        Horne Fax 6:Home Internet - The CEO's home fax line and Iiome internet were
        charged only because the CEO worked increasingly from home. When
        questioned about this, the auditor stated that there was no evidence to support this
        charge. We contend that hundreds OF thousands of faxes and enlails would be
        ample evidence. It should be noted that the date of the transactions for the
        internet charges were in FY 03-04. AAer August 2004, there were NO charges to
        AmeriCorps for these services.

        Home Cable Television Services - The CEO's Iionie cable television sewices
        were NOT charged to any grant. The cable internet bill is combined with the
        cable television bill. The CEO \vent to the cable provider's ofiice to find out
        which costs were speciticaIly related to the internet and charged ONLY those
        costs. This Fact was confinlied by USVI Accounting Staff by calling the Cable
        provider offices.

        Personal Shipping Fees - This item is misleading. On one occasion there was a
        $7.76 personal shipping Fee left on a UPS invoice that was otheiurise all work-
        related. When examining other invoices it would be clear that the CEO
        meticulously separates out any personal i t e m fiom receipts. In addition, during
        the exit interview, the auditor stated that they recognized that this was just a
        ~nistake,that it was in~inaterialand would not be included in the audit report.

        Subscriptions to magazines - Each rnagazine (or newspaper) purchased was For
        cities in which the USVI AmeriCorps program has operating sites. Articles fi'om
A & S ~ 27,2007       -   '

DRAFT Audit Response

        these nlagazines were sent to operating site directors and can still be found in
        corporate development fiIes today. It is accurate that some of the magazines were
        purchased from the CEO's son during a magazine drive, but since they were
        purchased for a price considerably cheaper than would have otherwise been
        availabIe, we are not anrare of a replation against this. When asked about this,
        the auditor simply staled that the magazine drive information was added because
        it was useful to the reader as background information. We question the meaning
        and intention of incIuding this statement when it has no other bearing on the audit.
        In addition, tlie items were not sent to the CEO's home (as stated in the report)
        but were sent to the office since the magazines were tbr work-related use and
        since the CEO receives niaiI in the office.

Special Events
USVI disagrees and contests all of the $10,201 in question for specid events (and $49
match). Special events are a11 service projects designed and implemented by USVI's
AneriCorps programs, and are an essential part of the support services offered to
           .      -       -

ho~nelessveterans. Supplies necessary for the implementation dithese events are charged
to A~neriColpsbecause they were specific to the AmeriCorps event. USVI disagrees
with this tinding for reasons listed below.

        1. The auditor states these events are questioned because a majority of the costs
        incurred were t'or meals. Auditors state, they "believe these costs me(:duplicative
        because they are recovered tl~roughthe VA per-diem grant". We contest the basis
        of this finding. While the cost to feed veterans within USVI programs on a
        routine daily basis is reco\wed though other bnding sources besides
        AmeriCorps, there are circumstances when a special event arranged by
        AlneriCorps for the veterans includes meals. These AnieriCorps event meal costs
        are separate fi-om the costs recovered from other funding sources, not duplicated.

        2. Finding I lists seventeen special events "staged by USVI for veierans" staling
        that "tlie majority of the costs incurred fbr the special events were for meals". We
        contest the questioning of the entire Aniel-iCorps event costs since other supplies
        were purchased that are directly related to the AmeriCorps event and the grant.

        3. "Gradualion for 60 VIP veterans" with a cost of $468.60 was incorrectly
        inputted on a check request that was actually an AmeriCo~psMember Graduation.
        Supporting documentation was presented during the audit that sufficiently proves
        ihis cost sl~ouldnot be questioned.

        4. The last six AmeriCorps Events listed took place during the 2005-2006
        program year and are described both in the AmeriCorps Grant Narrative and the
        AmeriCorps Budget Narrative. We contest the finding and believe the auditor's'
        detennination that these events are unreasonable is subjeclive.
 C

August 27,2007                                                                      Finding I
DGT     Audit Response

Entertain~nent
AmeriCo~psMembers have been inst~umentalin developing the therapeutic community
of the programs in which they serve for the past thirteen years. Members coordinating
holidays and other special events, classes, and outings, provide homeless veterans with
the life skills and socialization they need to become productive members of society.
These activities build self-esteem and help break the barrier of' isohion that most
homeless veterans experience. USVI disagrees with the questioning of events determined
by the auditors as "en tertainnient" for reasons listed below.

       Halloweerl party and Christmas party - Both events were service projects led
       by AmeriCorps Members, within the scope of the grant. These events and their
       corresponding supplies were not implemented lo provide entertainment, but as a
       part of the support services and life skills this program seeks to provide to its
       beneficiaries.

        PoIyrlesian Dance l e s s o ~ ~ins questiolr - These lessons are led by an AmeriCorps
        Member as a recreational class for veteran residents. Member-led classes are
        within the scope of the grant as a part of the support services provided by
        Members. Of particular note is the cultural in~portanceof this and other classes
        and eveilts led by our Hawaii AmeriCorps Members.

        Los Angeles Dodger baseball tickets - These tickets were purchased for
        Member-recruited volunteers as a recognition and ~r~orale-buildingevent.
        Recruitment and retention of volunteers is a required and essential component of
        our AmeriCorps grant.

Civic Organha tions
The CEO's Membership in Rotary was charged to this grant because it was believed that
the association would specifically benefit the AmeriCorps program. No other
memberships to civic organizations have been classed to the AmeriCorps program since
the audit brought this to our attention.

Credits
USVl disagrees with this finding. I'he audit report states "We identified claimed costs
for an event for which a security deposit refund was received but not credited to the
grant." USVI never received this refund and demonstrated this to the auditors during
their fieldwork.

Gifts Claimed as Supplies
USVI contests the $217 for backpacks purcliased for homeless veterans distributed
during the AmeriCorps Christ~nasService Project. The projecl was initiated, planned and
implemented (including purchase of supplies) by the AmeriCorps Members.'
Docurnentation was provided to auditors to demonstrate the level of Member
A;KJUS~ 27,2007                                                                   Finding 1
DRAFT Audit Response

invoIvement in these events. The backpacks were purchased as suppIies to carry out the
event.

Con tributiondDona tioris
USVI contests the entire $290 and disagrees that they are contributions for the reasons
listed below.

        1. $150 registration Fee for Hike for the Homeless - Fee was paid for registration
        in order for the AmeriCorps program to provide outreach and information about
        sei-vices for the liomeless. The $1 50 fee paid was not made as a donation. USVI
        was unaware that to pay a fee allowing the program to provide outreach services
        would be considered the equivalent of making a donation.

        2. $90 "donation" to Women's Care Cottage - Fee in question was paid as the
        ticket price fbr the CEO to attend a networking luncheon of providers and
        foundations. USVI was unaware that to pay the cost to attend this event would be
        the equivalent of making a donation.

        3. $50 "donation" for Military Women in Need luncheon - Fee was paid for the
        CEO to attend this luncheon as a networking opportunity. The topic was related
        to services provided to feniale veterans by Members. USVI was unaware that to
        pay the cost to attend this event would be the equivalent ofinaking a donation.

Unallowable Travel
The auditor states that the CEO's expense reimbursement reports were not reviewed by
anyone within USVI, which is not accurate. Prior to recording of these expenses, the
reports are reviewed by accounting personnel. There is only one questioned cost for
$1 10 in this category out of thousands of dollars spent on travel. This particular expense
was mistakenly charged to the grant. The auditor also states that these costs were not
properly supported due to USVI's lax approach in documentation. The infrequency of
such occurrences demonstrates that such reports are reviewed, aIso contradicting the
statement about the lax approach.
kPsl 27.2007                                                                         Finding 2
DRAFT Audit Response

                           FINDING 2:
    USVI disagrees. USVI has implemented an adequate financial
  management system to ensure costs claimed are allowable, allocable,
                          and reasonable.

Transactions Rctroactivclv Added to thc March 31,2006 FSR
USVI recorded several transactions dated prior to March 3 1, 2006 after the FSR for the
period had been completed. These transnctio~iswere ilicluded on the September 30, 2006
FSR which is completed on a culnulative basis. As the auditors state in their report,
nearly a11 of these transactions were found to be valid and allowable, except for the issues
listed below.

       1. USVI incurred a delay in the recording of corporate credit card charges due to a
       lengthy teconciIiation process. This reconciliation lias been completed and
       recorded, but the supporting docutnentation was not reviewed by the auditor at the
       time the audit report was written thus they questioned two transactions from the
       program year 2003-2004 and seven transactions for the program year 2004-2005.
       It is USVI's expectation that these documents can be reviewed during the audit
       resolution process and resolved at that point in time.

       2. USVl's accounting system is set up to track revenue and expenditures by
       program, funding source, prog-am year, and site. For the CNCS National Direct
       p a n t 03NDHCA001 that relates to this audit, USVI had set up a codins system to
       distinctively track activity for each of the three program years; for program year
       2003-2004, the digit 1 was utilized to track all activity, L'or program year 2004-
       2005, digit 2 was utilized, and for program year 2005-2006, digit 3 was used. As
       this three year grant came to an end and the renewal grant was initiated, USVI
       reverted back to the digit 1 to track activity for the first year of the renewal grant.
       Since this method of tracking activity on the general ledger was adopted in 2004,
       USVI lias historically reutilized program year codes to match the program year of
       the gmnt. USVI has Iiistorically (since the 2004 coding system was adopted)
       reutilized program year codes to match the program year of' the grant, so as year
       three came to an end USVI reverted back to the digit 1 for the new p n t which
       began in 2006, This potential overlap was brought to IJSVI's attention by the
       auditors. USVI itnlnediately addressed the issue and has restructured the program
       codes to reflect the cun-ent grant beginning in 2006-2007 by utilizing digits 4-6 to
                                                                                              +
       track activity. A11 adjustments have been made to correct any overlap. All 2006-
       2007 activity is now reflected in program year 4.
~ u g u s 27,2007
          r                                                                        Finding 2
DRAFT Audit Resporise

         Of the $2,617 questioned by the auditors, SI 60 was correctly coded to the
         previous gant, and $3 18 were miscoded but the appropriate adjustment was made
         and should not be questioned. The remaining $2,\ 53 has been placed in the
         newly created prognm code AMCN4 (as described above). These costs are fiscal
         year end benefit adjustments lo 2003-2004 salaries not questioned by the auditor.
         An additionaI $3 IS of'this questioned amount was a miscoding to the 2003-2004
         progl-am year and was adjusted to its proper program yea- 22005-2006 and should
         not be part of questior~edoverlapping costs. The remaining $2,153 did relate to
         activity under the 2006-2007 program year. These costs have been shifted to the
         newly created p r o g a n ~code AMCN4- (site not specified) which is separate from
         costs relating to the first program year of the previous grant.

         3. We agree that six months of space costs were allocated to the National Direct
         grant by mistake. During program year one of the grant, the Long Beach site was
         part of the National Direct grant. Beginning in program year two, the Long Beach
         site was included in the California Commission Amel-iCorps grant. Through the
         conversion process, six months of program year two space costs were incorrectly
         coded to the National Direct grant, but corrected froin that point foiward.

Indirect Costs Charged as Direct Costs
CEO labor, travel, and other costs - We contest the CEO's labor. travel. and other costs
charged directly to the grant in the amount of $1 17,322 (and $5,478 match). The CEO
charged only time spent directly on specific programs to any specific site or hnding
source. These hands-on aclivities would include, but not be limited to, facilitating site or
AmeriCorps meetings and/or training sessions, program developinent for specific sites or
programs, and com~nunitydevelopment for specific sites or programs. In addition, the
HUD Audit Report on USVI dated September 27, 2004 contained no findings that the
CEO had charged time inappropriately to any HUD grant, recognizing, it would seem, the
hands-on nature of the work done and the time charged.

Site director's travel- We disagree with $439 being questioned. It is unclear to USVI
why the costs of Site Direc~ors'expenses are grouped into this category of indirect costs
charged as direct costs. Site Directors rarely charge any labor, travel, or other expenses
directly to the An~eriCorpsgrant. When they are working specifically b r AineiiCorps, it
is appropriate to do so. In this instance, the Phoenix site had a brand new AnleriCorps
director and the Phoenix Site Director had been the acting AmeriCorps director for some
time.
A&I   27.2007                                                                        Finding 2
DRAFT Audit Rcsponse

Costs Allocated to Grant without .JustitTcation of AlIocatio~i

       1. Traveler's labor distribution -Where travel costs were claimed to the
       AmeriCorps grant, but labor claimed to n different g a n t , this was a coding emor.
       The employee traveled for purposes direct1y related to the Amer-iCorps g a n t , but
       used the wrong codes on the timesheet, as substantiated by back up
       docu~nentationduring the audit. In fact, in some cases it appears that the Natioilal
       Direct gsant was LJNDERCHAIZGED for travel related directly to A~neriCorps.

       2. Other operating costs allocated to the grant with no explanation - IISVI
       contest the $17,037 (and $1,26 1 match) of costs for various lransactions. Backup
       documentation was provided for each of these expenses. It is IJSVl's expectation
       that these documents can be reviewed during the audit resolution psocess and
       resoIved at that point in time.

       3. Payroll costs charged to the grant in error - USVI Contests the $291 of
       vacation and sick time that the auditor claims was recovered twice. These costs
       WERE NOT recovered twice.

       USVI uses an allocation method for benefit costs set forth by its lndirect Cosi
       Rate Agreement. TIE benefit rate in the agreement is a provisional rate. 'This
       provisional rate is an interim rate until a final rate is determined. The final rate is
       established by calculating the total benefit costs captured in the benefit pool
       divided by total salaries as a base. This finding involves two employees who
       mistakenly charged sick and vacation time to the p a n t directly. This cost would
       have been caphired in the grant salaries line and not captured within the benefit
       pool. Since these costs were not part of the benelit pool, they would not have
       been allocated to the program tlvough the ICR benefit calculation. These costs
       therefoi-e would not have been recovered as direct costs and lhrough the fringe
       benefit rate.

Unsupported Costs
      I . Journal entries without originating documentation - 6 total transactions
     totaling the $2,505 (and $500 match costs) are being questioned. Further research
     is necessary to provide originating documentation, It is IJSVI's expectation thal
     these docutnents can be reviewed during the audit resolution process and resolved
     at that point in time.

       2. Insufficie~itdocumentation - Documentation for transactions totaling $15,134
       (and $2,766 match costs) was provided to the audit team during fieldwork. It is
       1JSVl's expectation that these documents can be reviewed during the audit
                                                                                             -
       resolution process and resolved at that point in time.
kgust27,2007
DRAFT Audit Rrsponse


        3. Houston Program Director timesheets - The Houston Proganm Director does
        devote a portion of her time lo the VIP program to facilitate classes for the
        veterans. The audit states that auditors were unable to determine the validity of
        the costs claimed. We seek further y i d a n c e on how lo validate the time in
        queslion.

        4. Hawaii Program Director tinleslieets - Timesheets were reviewed and show
        that they were conlpleted based upon activity. However, when the timesheets
        were calculated for payroll, the payroll department followed the guideline of 0.50
        that the I'rogam Director had placed above the payroll code, instead of
        calculating based upon the actual h o u ~ sthat were recorded on the timasheet. It is
        USVl's expectation that these documents can be reviewed during the audit
        resolution process and resolved at that point in time.

        5. Los Angeles An~eriCorps Director - One timesheet is in question.
        Timesheets tbr the periods before and afier the missing ti~ncsheetare indeed
        there, indicating that the Program Director was employed during the time period
        in question. It is USVl's expectation that these documents can be reviewed
        during the audit resolution process and resolved at that point in time.

        6. Living allonrsr~cesclai~iiedwere more than recorded - This was a result of a
        system e l - m that has already been corrected.

Costs Not Approved in Award Budget
USVI disagrees with the questioned insurance costs oi'$2,072. Tlu-ough 6130105, the cost
of insurance was included in the Overhead component of USVl's Indirect Cost Rate
Agreement. As of 7/1/05, the Indirect Cost Rate Agreement, previously approved by the
Corporation fbr National Service, was temminaled and a new approved agreement was
initiated with the Department of Veterans Af'fairs. This new agreement included
dissolving the Overhead component. The items previously allocated through Overhead
were to now be allocated directly. The same method of allocation, which uses salaries as
the base, would be used to allocate these costs directly instead of being part of the
Indirect Costs Rate allocations. The auditors are questioning the insurance costs allbcated
to the A~neriCorpsprogram from July through August 2005. This is the period of time
where the cost of insurance was approved in the budget within the line item Overhead.
The auditors did not question the cost of insurance prior to July 2005. These costs were
initially approved in the Overhead line itern of the budget, and allowable through June
2005, therefore should continue to be allowable for the finid two months of the program-
year since the costs did not change nor did the basis of the allocation methodology. For
August 27,2007                                                                      Finding 2
DRAFI Audil Respo~ise

the program year 2005-2006, USVI did budget insurance costs as a line item and these
costs were not questioned by the auditors.

USVI agees with the audit as it relates to bank seivice fees. There was an error in the
allocation of the bank service fees. These fees were part of an overhead allocation that
was erroneously allocated to only corporate programs, AnieriCoips parent site included.
This overhead allocation is no longer used. Currently, the bank service charges are part
of the Indirect Cost Rate Adniinistrative pool and are aIlocatecl out to each program, as
are a11 other Adininisti-ativecosts, using total costs as the base for the alIocation.

USVI disagrees with the questioned cell phone charges of $874. The auditors questioned
cell phone charges incurred fioni the usage of cell phones by AmeriCorps members. Per
the auditors list 01' questioned costs, these charges resulted from two of USVl 's operating
sites, Washington DC and Los Angeles. The Washington DC site has wit-hin its approved
budget a line item for telephones for both the questioned program years 2003-2004 arid
2004-2005. Los h g e l e s also has within its approved budget a line item for cell phones
for both program years questioned 2004-2005 and 2005-2006. Also on the list of
questioned cosls, the auditors state that only living aIlowances and fi-ingebenefit costs are
approved for members. USVI does not understand this position since there are other
operating costs that members incur sucli as mileage, training materials, and cell phone
charges that would be allowable under the grant. Since both sites have line items within
their approved budgets for telephone, USVI beIieves that these items should not be
questioned.

Costs Not Allocable
The audit lists six examples of costs where the allocation of these costs was not
accurately charged. The value of these six examples questioned under the Federal Share
is $l.gIS.

USVI DOES review the FSIl-s prior LO subniission. The Controller worked with the
Fina~icialAnalyst in calculaling the figures to be reported on the FSR and was also
involved during the submission process of the FSR into the e-grants system.

As stated previously, USVI DID take action to adjust the general ledger coding structure
to ensure that there was no commingling of grant costs. Through the process; it was
detelmined that there was $2,153 of costs that did relate to a future grant but originalIy
coded to the grant r~nderthis audit. The correction was made to shift these costs into a
code separate and distinct from the 03-04 program year. Also, the statement in the audit
"USVI contended that its MAS 90 accounting system would not accommodate another
fimd code and concluded it had 110 choice but to reuse fund codes" was taken out of
context. USVI knows that the MAS 90 system could accoinmodate an additional,
numerical program year field, but again as previously stated in Finding 2, it had
historically reverted back to progaln year one to reflect the first program year of the new
~&gus127,2007
DRAFT Audit Response

grant period. The audit team did not discover or conclude that other codes within the
general ledger nccounling structure could be used.

The statement "USVI's Controller stated that he does not review cost allocation because
the costs are too in~nlaterialf'or his involvement" was taken out of conlest. USVI's
recollection is that the auditor asked USVl's controller if he had reviewed the allocation
of a single invoice of approxin~ately$100. The controIlei- stated that he does not review
the allocation of' every invoice submitted to accounting. He does review the allocations
of benetits and adnlinistrative costs as well as some other direct allocation items
including food. Eacli direct invoice, and its allocation if necessary, is typically approved
by the Site Director.

USVI's process of allocating costs to programs is based on the outconle of the activity
performed as to which program such activity benefits. If a cost or activity pertbnned is
directly associated with a particular program, this cost is directly charged to that program.
This method follows OMB CircuIar A-1 22, Attachment A. General Principles, Paragap11
B. 1 .
Au y s r 27.2007                                                                     Finding 3
DRAFT Audit R~sporlsc

                                      FINDING 3:

  USVI disagrees. Although mistakes were found, cIainled match does
                  meet the requirements of the grant.

Match Costs Fro111VA
USVI contests the costs fiom the VA totaIing $14 1,827. The November 15, 2005 letter
mentioned in the audit states that the VA" ...does noi authorize our per diem fimding to
be used as a match." USVI has not used VA per diem funds as match to the A~iiel-Corps
program.

Rlatch Costs froiii Departrne~itof Labor Iiu~iding
USVI contests this finding for supplies totaling $3 1,385. USVI did have, though budget
modification, a line iiein for "In-Kind Supplies and other Misc. Items" approved in its
budget. The in-kind match in this finding was used as part of USVI's matching costs
within Section 1 - Program Operating Costs. Program Operating Costs may be matched
using federal sources. USVI is not aware of the inelno referred to in the audit report.

Match Costs Allocablc to California Commissiori
As the audit report states, the Long Beach site was inchded in the National Direct grant
during the 2003-2004 program year. Beginning in the 2004-2005 program year, Long
Beach was taken out of the National Direct grant and included in the newly awarded
California Conmission AnieriCoips grant. During the first part of the 2004-2005
program year, the in-kind collected fioni the Long Beach site was erroneously included in
the draw calculations with the Los Angeles Site. The coding was always correci. The
error occun-ed by including the data in the draw calculation. This was corrected and the
value of [he in-kind donations coIlected in Long Beach was shifted out of the National
Direct grant and into the California Conlmission LTant. As shown on the Finding 3 chart,
there are no questioned costs associated with this issue.

In-kind snpcrvisio~i
USVI disagrees with the $54,538 in question. In past years, a formula of estimating 1.5
hours of supelvision for every 10 hours worked was used as a guide o r example for site
supet-visors. This folmula was derived by analyzing what activities supel-visors were
engaging in with Members based on what they ag-ee to as site supervisors. Such
activities include weekly meetings with Members, supervising their service, training
Members, s t n ~ c h ~ r i nMember
                            g      activities, discipline and evaluation. Over the years, this
guide became included in the form. The in-kind supelvision form has already been
modified so that supe~visorsestimate their supervision hours without such a fol-mula.

It is USVI's understanding that in recording match, donors must estimate [he value o r
their donation and certify that the value is accurate. WhiIe the formula did present a
                .   r

A&st 27,2007                                                                      Finding 3
DRAFT Ai~dilResponse

standard guideline, supervision f o m ~ also
                                        s contained the necessary criteria for recording a
donation as match. The auditors state that they sought additional support fi-om site
s~ipervisorssuch as copies of timesheets that wouId reilect their time spent in supervision
of AmeriCorps Members. This is the tirst that USVI had heard of the need for
supervisors to submit timesheets for their supervision donation. No previous audits or
monitoring visits determined that another nlethod to document supervision as match was
necessary. Supelvision takes pIace daily in many different forms. Members are indeed
supervised and supervision should be allowed as match. USVI requests that alternate
methods of verifying supei-vision be ofrered. 11 is USVI's expectafion that these
documents can be reviewed during the audit resolution process and resolved at that point
in time.

Donated in-kind n,oods
USVI disagrees with the $137,166 match being questioned for donated in-kind goods for
reasons listed below.

       Donor signatures - USVI understands that a donor must certify their donation
       certificate with a signature. Several signatures have already been obtained. It is
       USVI's espectation that these documents can be reviewed during the audit
       resolution process and resolved at that point in time. Training has been provided
       to AmeriCorps Directors and Site Directors to insure thorough compIetion of in-
       kind forms going forward. The National AmeriCorps Director now reviews all
       in-kind forms for accuracy before the in-kind donation is recorded. lncoinplete
       f o r m are not reconled.

       Value of donati011 assigned by USVI personnel - We are not certain of all
       instances where this Ilappened. On some occasions, the donor left receipts or
       other docunlentation to show the value of the donation and the t o m was
       con~pletedby USVI personnel.

       Allocability of donations to the AmeriCorps program - USVI records
       donations to the AmeriCorps g a n t when they are related to Member activities as
       stated in the grant. We disagree with the auditor's position that aIlocability of'
       donations could not always be established. Member activities take place in Inany
       forms daiIy. Every activity with the use of a donated item niay not be witten
       down on anything that couId be provided to the auditors, as was requested in
       order to establish aIlocability. That method alone would prove unsuccessful,
       USVl has changed the in-kind forins to document the purpose of the donation
       inore clearly going fblward. We ask for alternate consideration to establish
August 27.2007                                                                      Finding 3
DRAFT Audit Responsc

       allocability of these donations rather than question the entire amount because in
       fact, the donations are relalecl to services provided by AmeriCorps hlen~bers.It is
       USVI's espectation that these docu~nentscan be reviewed during the audit
       resoIution process and resolved at that point in time.

The audit report states that some donors were called and indicated that they had never
heard of AmeriCorps. This statement is misleading. Although USVI makes every effort
to promote the AneriCorps propam, donors are most likely to associate their donation
with homeless veterans rather than an PuneriCorps Program. Those veterans are indeed
being served by AnleriCorps Members wilh the assistance of donations from the
com~nunity. This report claims that donors never signed re-certification forms.
However, USVl has never been informed of this or given the opportunity to investigate.

Other in-kind services
Accouriti~~g  Sewices - We contest tlie $176 of match being questionecl for this service.
A professional CPA provides accounting services (tax preparation, budgeting) to clients
as part of support services offered by this grant. The CI'A still volunteers and can indicate
the value of the donated time and certify the donation. It is USVl's expectation that these
doculnents can be reviewed during the audit resolution process and resolved at that point
in ti~ne.

Trainir~gServices -- We contest the $6,161 being questioned of in kind training services
provided to our DC AmeriCosps Members. According to CNCS training materials, the
donor must estimate [he value of their sewice and sign to certify their donation. All of
the above was clone and the training was all directly related lo A~neriCorps.It is USVI's
expectation that these docunients can be reviewed during tlie audit resolution process and
resolved at that point in time.

Public RelationsIMarketing S C I ~ ~-CInC the supporting schedule for "Other In-kind
S e n k s " , the total dollar amount being questioned is overstated by $32,350 due to
$32,000 of this donated service counted twice. There is also no matching $350
transaction found for this item. This inflates the total stated dollar mount of match being
questioned! This discrepancy should be corrected in the final report and in tlie supporting
schedule. These services were donated for a total of $72,000. The documentation was
done and the training was directly related lo the Members. We contest h e entire $72,000
being questioned of this donation. It is USVI's expectation that these documents can be
reviewed during the audit resolution process ancl resolved at that point in t h e .
                                                                                            *


Rental Truck - USVI contests the entire amount of $1 14.57 which is the actual amount
claimed from this donation. The audit reports diat the questioned cost of this donation is
August 27, 2007                                                                  Finding 3
DRAFT Airdil Response

S l 1,196, which is incorrect. T h e Auditor h aIS overstated the claimed donation by
$ I I ,OS 1.43! Penske donated the rental truck which was used for an AmeriCoi-ps Service
Project. The correct value is $ 1 14.57, as indicated in the documentation. 11 is USVl's
expeclation that these docu~nentscan be reviewed during the audit resolution process and
resolved at that point in time.
Augst 27, 2007                                                                    Finding 4
DRAFT Audit Response

                            FINDING 4:
 USVI disagrees. lMistakes were made but USVI does have controls to
  ensure AmeriCorps lMember program requiremerlts are followed.

Proof of Citixens hip
The draft audit reporl states that five Members' education awards and one of those
Menibers' living allowance are all being questioned. However, only four hdembers' bil-th
certificates were no1 located. This is a discrepancy in the drafi audit report. This
discrepancy should be col-rected to represent the accurate nuniber in the final report.

Birth certificates for two Members were not located at the time of the audit. The third
LMe~nberreferenced served two terms and is counted as two meinbers. His documentation
is unclear because of his legaI name. It is USVI's expectation that these documents can
be reviewed during the audit resolution process and resolved at that point in time. USVI
now provides additionaI monitoring to insure that no Members are enrolled without a
birth certificate.

Questioned Education Awards
USVI has systems in place lo insure that data is entered correctly. Human error will
occasionaIly cause minor errors as is the case with the four ~nemberslisted below:

       Member #1: USVI does no1 feel this Member's education award should be
       questioned for this small discrepancy of hours. T h e e hours were crossed off of
       the Member's tinieslieet, but entered in10 WBRS. This member would certainly
       have served the additional hours if this error had been found in a more timely
       way. It is USVI's expectation that these documents can be reviewed during the
       audit resolution process and resoIved at that point in time.

       Member #2: USVI does not feel this h4ember's education award should be
       questioned for this srnall discrepancy of Iiours. Data entry resulted in the Member
       being two hours short of the 1700 requirement. It is USVl's expectation that
       these documents can be reviewed during the audit resolution process and resolved
       at that point in time.

       Member #3: USVI does not feel this Member's educalion award should be
       questioned. Due to a filing error, the timesheets of another Member with the
       same last name was inadvel-tently entered in WBRS. This resulted in the Member
       appearing 220.5 hours short of the 1700 hour requirement. It is USVI's
       expectation that these documents can be reviewed during the audit I-esolution
       process and resolved at that point in time.
 st  27,2007                                                                      Finding 4
DRAFT A d i r Response

       Member #4: USVI does not feel that this Member's education award should be
       questioned. The Member failed to record 56 hours sewed. The omitted hours
       were spent in training and orientation! and in hours served in program activities
       outside of her normal schedule (that she did not realize were eligibIe to be
       recorded). The Member added the hours retroactively lo a timesheet which is
       why the hours are being questioned by the audit team. It is USVI's expectation
       that these documents can be reviewed during the audit resolution process and
       resolved at that point in time.

Partial Education Awnrd
One Member in 2004-2005 received a parlial education award for their exit due to
personal and cornpelling circumstance. The AmeriCol-ps Direclor for that program year
has since moved and left no additional informalion in the member's file regarding the
reason for the Member's exit.

Third Term Members
USVI agrees with the audit. During the audit it was discovered that some AmeriCorps
Directors misunderstood the rule on maximum terms of service. The appropriate
definition of ~naxiinunterms has been colnnlu~licatedto the operating sites to insure
complinnce going forward. No third term Members are currentIy enrolled for the 2006-
2007 program year. The practice ceased immediately with this audit finding so that the
issue will not arise again.

Living Allowance Clainied Above Established Ceiling Liniits
USVI agrees with the audit. The audit states there were eight instances where a member
received stipend payments above the established ceiling limit. These eight instances
totaled $2,574.83. In seven of the eight instances, the amount received by the ~ n e n ~ b e r
above the ceiling was equal to or less than a full bi-weekly stipend amount. Seven of the
eight errors were from the 2003-2004 program year and the eighth was in 2004-2005.
USVI's payroll processor maintains a spreadsheet of all current members and the
accu~nulationof stipend payments made to each of these members. These excess stipend
payments were related to errors in that payment spreadshect. Additional processes have
been put into place to guard against these errors happening again, The spreadsheet is
now being reviewed against the payroll registers to ensure its accuracy and is also being
inonitoreti closely before each payroll to determine any living allowance limitations prior
to the processing of the stipend payments.

Livine Allowances Chinled for EAO Rlenibers
USVI agrees with the audit. The four instances referenced in the audit were from the
program year 2003-2004. There was some conhsion around the classification of these
members at the beginning of [hat program year that caused their stipend payment to be-
charged CNCS. A correction was made to classify their stipend payments appropriately
once the inistake was determined. Cun-ently, the payroll processor for USVI checks the
A&S~ 27,2007
                 --                                                               Finding 4
DRAFT Audit Response

status of the member with the inember contract on file to verify the correct classification
of the member.

Unsup~ortedR'Icmbcr Living Allowances
Audit report states there were four persons whose Member status could not be verified.
The supporting schedules provided by auditors for this item only indicates three Members
were unsupported, not four. This discrepancy should be corrected to represent the correct
number of Members in the final report. These Members were not enrolIed in WBRS was
because they served less than 30 days and left prior to the Program Direclor enrolling the
Member in WBRS. One of the three Members in question did in fact have s Member file
that was given to the audit team but the Member still remains in question. The other two
Member files were not able to be located or incolnpIete because the Members left the
program before the required enroIlment date.

Nevada AmeriCorps Members
USVI disagrees that these Members' living allowance and education awircls should be
questioned. Three Members did serve in Las Vegas, Nevada in direct service to horneless
veterans. These Members were not serving for any purpose outside of what was written
in the National Direct grant that includes the Phoenix operatinre site. Members did not
take part in any prohibited activity. They were recruited, enrolied and managed
appropriately, The program was unaware that Members could not serve on another site
within the same organization where cause, activities, a i d beneficiaries are the same. The
program grants assurance that going forwardl while a11 Men~bersof this grant wilI
conlinue to be recruited to serve homeless veterans across numerous communities,
Members will not serve on another site other than where the slot is awarded.

klen~berDuties not Alloc~bleto Yrorrram
We disagree with $94,877 federal share, $16,743 match, and $41,675 education award
costs being questioned in this finding. All Members served veterans and did not perform
any prohibited activities.

"Two members stilted they had never performed sewices related to veterans3'- The
service that these Members provide is elaborated below.

       These members serve at a placement site that is dedicated to providing services to
       the entire homeless population which includes homeless veterans. It is a network
       of housing, employment, and treatment programs across the city. CNCS is aware
       that Members of this program will serve both homeless veterans and non-
       veterans. Ho~neless veterans make up nearly a quarter of the homeless
       population. Placing Members in agencies that serve the homeless is designed to
       insure that veterans conling to that agency for assistance will be connected to
       appropriate social services by the AmeriCorps Member. This practice also helps-
       to create litlks in the continuum of care and foster referrals and collaborations
       targeted to benefit veterans at different sites. The number of veterans Members
~ h ~ u27,2007
        st
DRAFT Audit Rcsponse

       served at this site increases each year. These Members also participate in each
       AmeriCorps service project and sesve hundreds of homeless veterans through
       these projects.

"Four Members performed administrative services for USVI" - The audit only
questions three members services, not four. In addition, only one of these members
served in a program administered by USVI. These discrepancies sliould be co~rectedin
the final report. It must be understood that it is i~npossibleto provide direct socia1
services without performing some administrative work. USVI contests the finding
entirely foi- the following reasons:

       Member #1: This Member served as a Case Manager for Ilomeless veterans
       living in transitional housing. 'The Member interview suinmary provided by the
       auditors cites that the Member "assists the clients in other administrative
       tnatters ..." USVI is fully aware that Members cannot be engaged purely in
       administrative work. It should be acknowledged, however, that with any and all
       Member positions, there will be administrative functions incidental to providing a
       direct service. Interviewing prospective clients, as mentioned, wilI include
       completing paperwork necessary for nloving n veteran into supportive housing.
       These duties are included in case management and are minimal compared to the
       direct sewice that the veteran receives from the AtneriCorps Member.

       Member #2: This Member selves as an Infol-mation and Referral Specialist,
       working with the homeless population including ho~iielessveterans, who are in
       crisis situations. CNCS is aware that Members serve within agencies that serve
       both homeless vetesans mrl non-veterans. The auditors' interview summary lists
       various duties that the Member compIeles. Phone interviews and directing the
       homeless to local service agencies that best fit their needs is a referral process
       which connects the continuum of care for the homeless in an attempt to best meet
       the individual's needs. It is mentioned that the member fdfills administrative
       duties within the placement site. Again, all positions will include a cei-tain
       amount of administrative work necessary to accomplish the direct service.
       Providing referrals to the homeless for services, and its related tasks, as is in the
       case of this Me~nber,is not administrative.

       Member #3: This Member serves as an Intake Specialist within a permanent
       housing facility for homeless veterans, referred to as the DeGeosge. It should be
       reiterated that the DeGeorge is no longer a hotel and has not fimctioned as a hotel
       in over 20 years. The hotel was converted to single room occupnncies for
       homeless veterans. The duties listed by the auditors are related to moving a
       homeless veteran into permanent housing. Again, there will be a cel-tain amount
       of administrative work involved in serving these veterans, yet should not b<
       considered prohibited.
August 27, 2007                                                                  Finding 4
DRAFT Audit Response

"T1i1.e~Members performccl services for CAI, including janitorial work, :misting in
the preparation of lease agreements, processilig vcteram into Transitio~iala n d Long
T e r m Hoosing, a n d acting as the rcccptiorrs a t the Westside Residence Hall site" -
The supporting schedules lists five Member names not already addressed. The list does
not indicate what activity is being questioned of each Member listed. Clarification was
asked of the auditor in order to respond accordingly, but none was received. Therefore, a
brief position description of these five Members will be provided:

       b l c ~ n b e r# 1: This Member served as Volunteer/Donat ion Coordinator. The
       Member was in charge of all donations to the homeless veterans of the VIP
       program. The Member collected, managed, and distributed clothing and other
       donalions to the veterans of the program. Member was also in charge of
       recruiting and managing volunteers that came in to the program to provide
       services to I~o~'neless  veterans.

       Membcr #2: This Member sewed as Veteran Conmunity Service Supervisor.
       Member provided community service supervision to homeless veterans in the
       Veterans In Progress program. Community Service is a tool that is used in the
       first pliase of the VIP program to help the participating veleran's recovery by his
       investment in a therapeutic community.

       RIember #3: This Member served as Case h4anager. Member case managed
       homeless veteran clients in the aftercare stages of the Veterans In Progress
       program.

       Member #4: This Member sewed as Homeless Program Case Manager. The
       Member was responsible for screening Iio~nelessveterans upon their admission to
       the U.S. VETS program. The Mtmber also served to insure that veterans attended
       their appointnlents with the Veterans Administration.

       Member #S: This Meinber served as Veterans Activities Assistant. The
       h/Iembel-'s duties included prelimina~yscreening of walk-in veterans interested in
       U.S. VETS programs and providing referrals to the next step in being admitted to
       one of those programs. The Member provided infonnation and refe~mlsto
       veterans inquiring about U S . VETS.             The Meinber conducted resource
       development for the benefit of veterans by sending out donation request letters
       and making follow up-calls. The Meinber also planned and implemented various
       sexvice projects held for the veteran residents.
~ " ~ u 27,2007
        st
DRJW-T Audit Response

Emplovees Earning. Education Awards -
We contest the continued use of I-IUD 01G interviews throughout the audit. 'These
statements are taken out of context, not entirely accurate, and in most cases had nothing
io do with ArneriCorps.

In this case, the CEO did not know that the individua1 in question was tin AineriCorps
Member and was arguing abouf the direct service aspects of the individuals duties. The
CEO never stated that the individuaI was a receptionist atid assistant since this was the
basis of the entire argument!

USVI disagrees that all 22 Members in question counted their employee work hours as
service hours. SeveraI Members did service hours separate from employee hours. It is
USVI's expectation that for these Menibers, their status can be reviewed during the audit
resolution process and resolved at that point in time.

USVI does agree that empIoyees should not earn education awards for en~ployeehours.
In the instances where this occun-ed, this was clearly a misunderstanding of USVI's p h i
to place Members in education award-only slots. It is USVI's understanding that non-
stipended or education award-only Members could be paid a stipend from a different
source up to a niasiniuni amount. It was USVI's intention to find a source to pay a
stipend to an education award-only h4ember. It was never USVI's intention to give
education awards to empIoyees. Site visits and closer monitoring is in place to insure this
does not occur again.
Augist 27, 2007                                                                   Finding 5
DRAFT Audit Response

                             FINDING 5:
    USVI disagrees. Rent claimed by USVI to the grant is allowable.

Less T h a n A r n ~ Length
                     s
USVI contests 10 of the 15 items listed by the auditor to substantiate their claim that
leases between lJSVl and CAI are less than arms Iength.
        There is no language in the regulations governing anns length transactions or
        related parties about "long standing persona1 relationships" or "being engaged".
        Atnotinledidtheauditorask theCEOifanyprecautionshad beenput intoplace
        to ensure the arms length nature of any transactions in which both parties were
        parti~ip~mts.
        To the best of our knowledge, the statement "CAI's President and USVI's CEO
       jointly conduct official USVl business" is inaccurate and misleading. CAI's
        President and other members of CAI staff often conducted business in the
        capacity of the Business Services Agreement or in their capacity as property
        owners and managers at each of the sites in which USVI administers programs for
        homeless veterans. USVl's CEO and other staff, including USVl's COO,
        Comnunity Development Director, and several site directors and program
        directors have; over the years, traveled to sites at the same time, attended
        meetings together, lunches and dinners together, and have represented the
        collaboration of U.S. VETS together in a variety of ways. We are unaware of any
        regulations govenling related parties or arms length hansactions that prohibit this
        type of activity.
        The only benefit CAI has received from Ame~iCorpsMembers services is that
        homeless veterans have remained off the street. We beIieve this benefits all
        citizens of the United States.
        USVI cul-rently provides services to horneless veterans in eleven locations (ten
        cities) tl~oughour the country. Nine of those locations include housing
        components for homeless veterans. Two of those facililies are s c ~ v i c ecenters
        with adjacent housing. Five of these eleven fdcilities are owned by subsidiaries of
        Cantwell Anderson, Inc. (CAI). Four of the facilities are owned by the Federal
        Government, but leased to subsidiaries of CAI for the sole purpose of providing
        housing for homeless veterans. Two of the facilities are owned by non-profit
        housing developers. Tell of the eleven properties are inanaged by an affiliate of
        CAI. USVI provides services to l~omelessveterans. USVI uses their resources to
        provide services necessary to help honleless veterans abandon life on the streets -
        and successf~~lly reintegrate into society. Those services include outreach, intake
        and assessment, d n ~ gand alcohol treatment, extensive employment and education
                                                                              Finding 5


programs, life skills, financial management, legal se~vices, clothing, food,
transportation, fanlily integ~ationand reunit'ication where possible, sexuaI trauma,
post-traumatic stress disorder, and social gatherings a11d events. Since 1994,
USVl has also utilized AmeriCorps Members to provide these services. The
beneficiary of the sewices is the hoineless veteran, not the building.
USVI's Conlrolles was originaIly hired by CAI's Presidenl as a CAI employee
because CAI had a Business Seivices Contract to do all the accounting fimctions
Ibr USVI. When USVI terminated this contract and moved the accounting
services in house, all the accounting pessonnel remained the same. No job
descriptions were revised, which is a finding that is later addressed in this report.
I1 is unclear in any regrdations governing alms length and related parties how this
contributes to the finding in any way.
CAI owns the property in Inglewood that houses the Westside Residence Hall,
which is the first program started by USVI. USVI's oflice for the Weslside
Residence Hall is there. as are USVI's corporate and accounting offices. since this
is where our programs stated. W e are not aware of any regulations governing
related parties or arms Ienglh transactions that prohibit a properly owner from
occupying space they own or a non-profit occupying space in il building that also
has space occupied by a property owner.
Contraiy to the audiior-s statement, USVI's notes owed to CAI are interest-
bearing.
The auditor's statement about the JVA is inaccurate. Tliere is no splitting of
proceeds generated from USVl activities between the two entities. The splitting
of proceeds flows one way, froin CAI to USVI.
The statement that USVI's CEO and CAI's President entered iiito a Rusirless
Services Ageement is misleading and inaccurate. The contract is betlireen USVI
and CAI. It is clear froin Board Minutes that these agreements were entered into
by the Board of Directors and was signed by the CEO on behalf of the
organization.
Although the BSA expired, Board Minutes during that time specifically call for
the agreement to be recusring annually.
Per the audit, the arms length transactions between CAI and USVI are in question.
These is no mention of an arms length issue with Century Housing (CVC). The
auditors are questioning the Corporaliot~'~  share of rental costs totaling $1 13,67 1.
Of this amount, $5,S09.53 relates to rental charges fi-om Century Housing (CVC).
It is inaccurate to report in the audit the amount relating to CVC when that-
relationship is not in question.
Augusl27, 2007                                                                    Finding 5
DRAFT Audit Response

HUD Iutervie~~s
USVI calls into question the use of escerpts fi-oin correspondence between HUD and
USVI and HUD OIG interviews with USVI eniployees since this information is taken out
of context for a different purpose. All statements consiitute "heresay" and in some cases
are n~isleading.

Allocation not Verifiable
It is inaccurate to state that USVI did not respond to the request to support the basis of
rental costs fi-0111 Centuiy Housing (CVC). Following the Exit conference on 4/ 1 7/07,
per the auditors request, USVI submitted to the auditors a copy of a CVC rental invoice
as well as a supporting schedule of the allocation. Also, the $53,595 questioned does not
coi~espondto Century Housing (CVC). That figure corresponds to the entire amount of
rental charges for fhe 03-04 progain year as listed in the audit and on the auditor
workpaper. This includes charges kern Westside Residence Hal1 (a CAI owned
company). The amount relating to CVC is niade up of only $2,617 of rental charges.

Allocated to the wrong want
The amount questioned in the Corpora~ion'sshare o r questioned costs is inaccurate..
During the progranl year 2003-2004, USVI did not have a grant through the California
Co~runission. The Long Beach site was part of the NationaI Direct ganl. The $4,173
relating to 2003-2004 was not allocated to the wrong g a n t and should be allowable.
During the year 2004-2005, the Long Beach site did become part of the California
Coinn~issio~~grant. USVI did ~nislakenlycharge $5,002 in rental costs relating to CVC to
the National Direct grant: but this allocation error has since been corrected.
August 27, 2007                                                                     Finding 6
DRAFT Audit Response

                             FINDING 6:
        USVI disagrees. USVI program results are clearly defined.

USVI Proaranl Results Were Not Clearly Identified
We disagree with this finding. USVI records the veterans served by individuals so that
propam results reported in WBRS and used for grant applications to the Corporation
reflect only the homeless veterans for which A~neriCorpsMembers provided outreach
services, case management, or employment services.

It should also be noted that USVI has worked with CNS TTA providers on performance
measures three times over the pas1 13 years. Each provider notes the challenges in
separating the efforts of one individual or one hnding source in any s e n i c e organization
where inultiple factors lead to tlie desired outcon~e. USVI absolutely eslablislies, tracks
and evaluates performance nleasrires for our programs!
August 27,2007
DRAFT Audit Rcsponse

                             FINDING 7:
    USVI disagrees. Mistakes were found, but USVI does consistently
                    comply with grant provisions.

Background checks
I-Iouston's CTI program selves veterans with mental illnesses but who are not considered
vulnerable. They advocate for then~selvesand are self-sufficient. Even the Veterans
Administration does not require background checks on any persons who seive those
veteratis. For these reasons, USVI did not determine these veterans as vulnerabIe and
Members did not undergo background checks prior to serving them.

Mid- or end-of-tern1 evaluations
The auditors cite five evaluations that were missing fiom Member files. Two of these five
Members' evaluations were misfiled, but were completed. One ~Meinber'sSite Snpen7isor
left her position prior to conlpleting an evaluation for the ~Meinber.Regarding the
                                                                                 -


remaining two evaluations that were missing, the program grants assurance that it is
aware ofthe requiremelit to conduct a mid-tenn and final evaluation with AmeriCorps
Members during their tern, of service. It is the practice ofihis program for the ~ e m b e i ' s
Site Supervisor and AmeriCorps Prograin Director to cotiduct and file evahations. USVI
is now executing this requirenieiit more diligently. The coinpIetion of evaluatiom is
monitored by the National AlneriCorps Director throng11 desk monitoring practices.
ArneriCol-ps Program Directors send copies of Member evalnations for review to identify
any evalu&ons that may be missing, and to ensure their conipletion.

Training hours
All Members receive Member development training during their term of service. Pre-
sewice training and ongoing client interaclion trainings are provided. Other training
topics are designed to enhance the personal and professional development of Members.
While all AmeriCorps Members are required to log their training hours on their bi-
weekly service hour logs, it has come to USVl's attention that some Members have failed
to do so in past progani years. Con-ective action steps have been taken to insure that
going forward all members will log both training and direcl service hours separately with
each timesheet. To demonstrate that Menibers do receive training, sign-in sheets signed
by ,Members were presented to the auditors. Sign-in sheets verify Member attendance in
trainings although some Members did not separate these training hours from direct
service hours on timesheets.

Enrollnient/exit fornis
USVI disagrees with IS of the 7s enrollme~itforms: as well as ! of the 42 exit foi~nsthat
were listed as being late in the Web Based Reporting System (WBRS). In tllese 19-
instances, the Mernbers were enrolled or exited a month after their start date. For
instance, the Member began service on 10/04/2004 and was enrolled in WBRS on
August 27,2007
D I W T Audit Response

1 1/04/2004. While October has 3 1 days in the month, it seems obvious that the P r o g m
Director strived to enroIl the Member on time. Such dates were never questioned as late
in prior monitoring visits and audits of USVI's AnieriCorps programs.                The
enrolIment/exit and approval system of this prograiii has been improved. In past years,
Propam Directors only had the ability to enter the enrollment data in WBIIS. A parent
staff niember would then be contacted to approve the forms. In some instances, this
system created a lag in time For the approval to be entered. Program Directors have since
been granted their own approvd access to WBRS to cut down the time lag between
enrollment or exit and approval of Members.

Charlee of status forms
Approval process has been improved as stated above. This program is more diligently
monitoring the timeliness of entering all forms in WBRS to insure compliance with the
prescribed 30-day rule.

USVI did not coniplv with specific grant provisions
USVI disagrees. The auditor states that USVI lnanagelnent visited its operating sites
th~.ougfioutthe country but documentation of these visits was lilni ted to travel vouchers
and eniails indicating that visits liad taken place. This is inaccurate. Site Visits were
documented through notes, emails, and niemos kept on file at the corporate office. This
documentation was presented to auditors during their fieldwork.
ÿÿ gust 27,2007                                                               Finding 8
DRAFT Audil Response

                             FINDING 8:
       USVI disagrees. USVl does have policies and procedures for
                             drawdowns.


It is inaccurate to state that USVI does not have written poIicies and procedures for
drawdowns. A Cash Drawdown Policy is written within the USVI Accounting Manual
under "Policies Associated wilh Federal Awards". USVI will expand on h i s policy to
include procedures specific to the Department of Health and Human Services' payment
manage~iientsystem (PMS). Additionally, USVI will set up and train additional staff to
perform drawdowns From the PMS system.
August 27,2007                                                               Finding 9
DRAFT Audit Response

                            FINDING 9:
     USVI disagrees. USVI updates its job descriptions as necessary.

Job Descriptions
USVI disagrees with this finding. The roles listed below have not changed.

                       -
   USVI Controller With the termination of the Business Services Agreement with
   CAI, all accor~ntingenlployees working on USVI accounting were moved in house.
   However, their position descriptions did not change.

   USVI CEO - The Executive Director's title change to CEO ~ v a san informal process
   through discussions in two separate nleetings of Board Members with USVI staff and
   ~ v a ssimply reflective of the evolution of the growth of the organization. A job
   description change was not deemed necessary.
A&T 27.2007                                                                         Finding 10
DRAFT Audit Response

                                    FINDING 10:
                                   FSR VARlANCE
The error referenced in the con~putationof the March 3 I: 2006 FSR was made during the
process of trarisposing the supporl documentation into the e-grants system, All tlie
attached corresponding support for the ~Mal-ch31, 2006 FSR matches the correct
cumulative figures. However, as part of the data entry to e-grants, an error was made in
calculating Section 1Oc of the report tllerefore overstating costs. As stated by the auditors,
this input error was corrected on the September 30,2006 FSR.

The lMarcli 3 1, 2006 FSR was reviewed and input into the e-grants system by both the
Program Officer and the Controller. The error was not detected at time of entry. To
hrther document this review process, USVI will develop a more forinalized procedure in
documenting the review / approval of tlie FSR.
August 27.2007                                                                Other M:lttcw
DRAFT Audit Response

                               OTHER MATTERS:


Evidential Matters
      The auditor ~iientionsthe Iength of time it took for the auditors to receive answers
      and atlributes this to inactivity on USVl's part. We assure you this was not the
      case. Staff worked many extra hours to be responsive to the auditors while
      performing tasks necessaiy to the daily operations of the programs.
      The auditor describes contradictions, which iiiay or may not be explainable when
      yo11 consider the different leveI of organizational history and program history
      various staff may have. However, it is impossible for USVI to comnient on vague
      statements which are hearsay and taken out of context.

Progranl I ~ ~ c o n w
      The auditor states that none of the JVA proceeds have been used for the benefit of
      veterans, which is inaccurate. All of the JVA proceeds have been used to repay
      debt incurred providing sewices to homeless veterans.
      Tlie auditor stales that according to USVI it has never reviewed the JVA analysis.
      However, Board Minutes contradict this statement.
      USVI's CEO was never asked to explain what significant expenses should be
      included in the analysis.
      USVl's Con~rollernever represented that he does not know about the JVA. He is
      aware of it and has read it.
      USVI is unaware of its Board being interviewed about anytliing during the course
      of this audit.

Ruliug from Another Agencv
Tlie auditor states that I-IUD originally questioiicd USVI's cash match because its origin
was From another federal source. THIS STATEMENT IS INACCURATE. HUD did not
question USVI's match due to the nature of the source. In fact, page one of Finding One
regarding cash match clearly states that HUD match can come from a variety of sources,
including federal funds. Please see I-IUD OIG Audit Report 2004-LA-1008.
August 27,2007                                                                      Appendix
D R A T Audit Rcspo~lse

                                      APPENDIX

United States Veterans Initiative has spent a significant amount o f time since the audit
entrance conference on June 21, 2006 providing audit officials with documentation to
support our activities and to eliminate most of the findings in this report.

This audit indicates that mistakes were found within our Aniei'iCorps program and that
USVI can improve in areas to operate a stronger A~neriCorpsprogam. We look forward
to working with the Corporation for National and Com~nunitySel-vice to resolve these
items. However, while USVI acknowledges that mistakes were made, w e disagree with
several statements made in this report. USVI does maintain adequate financial systems
and controls to remain within compliance of grant requirements. USVI does not take a
lax approach in documentation of costs or of maintaining records of costs cIaiinec1 to the
grant. USVI does not take a lax approach in its grant administration.

USVI calls to attention [hat there are instances where a charge has been questioned in full
under two different findings, thus the total questioned costs stated in this report have been
overstated. 'This discrepancy needs to be corrected for the final report.

The audit states that lransaclions related to rent expenses between USVI and CAI, are
less-than-arms-length. The arms length issues are still awaiting VA General Counsel
determination. USVI Board and Staff ase reviewing all relationships with CAI to ensure
that USVI is adequately insulated as an independent entity.

The statement made in the draft audit seport that transaction tests resulted in a 69% error
rate is misleading. Per an elnail f i o ~ nthe auditor on August 3, 2007, the audit team
judgmentally selected items to test. Sixty-two percent of the total errors found came
 from five recuring issues. These consisted of in-kind supervision, CEO/COO reIated
costs not charged as indirect, rent invoices that were determined by the auditor to be less-
than-arms-length, in-kind goods in which the auditor was unabIe to determine the
allocability to AmeriCorps, and California Commission in-kind recorded in error to the
NationaI Direct grant. With the exception of the last issue, these types of transactions
were handled consistently over the duration of the grant causing multiple findings: most
of which USVI believes to be in error. The judgmental salnpling method resulting in a
69% error rate is misleading, because it does not statistically represent the transaction
population in total.

The duration of the audit has been extremely lengthy, extending for more than 12 months.
There is mention of the length of time it took for auditors to receive answers to specific
questions from USVI staff The tiineIine of the audit was impacted by coin~nunication
challenges between auditors and USVI staff. These challenges included mistakes on the-
auditor's pait including the misrepresentation of findings and dollar amounts in question
(21s indicated in USVI's response). There were also instances where the audit team did
not fully disclose all infomation that would satisfy and remove a questioned cost or
August 27.2007                                                                   Appendis
U W . T Audil Response

activity from their list of exceptions. This led to duplicated efforts by USVI staff to
satisfy one transaction, during a time when the number of tramactions requested
expanded by 300%. The exit conference of this audit took place on April 13, 2007.
USVI was told that o draft audit report would be issued 30 days after the exit conference.
It was not until July 25, 2007, more than 90 days after the exit conference, that USVI
actually received the draft audit report. On May 8, prior to receipt of the draft audit
report, USVI was infoi*med by t.he Corporation that it was deferring action on its 2007
AmeriCo~ysNational Direct continuation grant. It was stated that this was due to issues
raised in the exit conference. USVI caIled to question the fact that this decision was
made prior to the issuing of the draft audit report and without USVl's response to the
findings. The timeline (and the effect of this audit have impacted USVI through the loss
of staff and of funding which has eliminated important sei-vices to homeless veterans.

Since 1094, USVI's AmeriCorps program has sel-ved thousands of homeless veterans.
More than two hundred of our AnieriCorps Menibers have been formerly homeless
veterans and this program has enabled them to sewe others like the~nselves. Many of
USVl's tinancial and programmatic systems have already been strengthened since the
inception of this audit and we believe we have consistently demonslratecl thoughout the
years, a willingness to own any mistakes and correct them.
                                    Appendix B



Response to the Draft Report by the Corporation for National and Community Service
                                 Cor~orationfor         ~r


                                 NATIONAL
                                 COMMUNITY
                                 SERVICE-



To:

From:



Cc:            Jerry Bridges, Chief Financial Officer
               William Anderson, Deputy CFO for Finance
               Andrew Kleine, Deputy CFO for Planning and Program Management
               Frank Trinity, General Counsel
               Sherry Blue, Audit Resolution Coordinator, Office of the CFO
Date:          August 27,2007

Subject:       Response to OIG Draft Audit Report on the Audit of the Corporation
               Grant to the United States Veterans Initiative


Thank you for the opportunity to review the draft audit report of the Corporation's grants
awarded to the U.S. Veterans Initiative. Due to the significant nature and extent of the
findings, we do not have specific comments at this time. After your final audit report is
issued, we will review the findings in detail, work with the U.S. Veterans Initiative to
resolve all findings and recommendations, determine the allowability of questioned costs,
and provide you with our management decision.




                        1201 New York Avenue, NW k Washington, DC 20525
                              202-606-5000 fi www.nationalservice.org                  us& "-
                                                                                       Freedom Corns
                                                                                                  *
                       Senior Corps a AmeriCorps   u   Learn and Serve America         The President's Call to Service
